<html>
<title> - IRANIAN INFLUENCE IN IRAQ AND THE CASE OF CAMP LIBERTY</title>
<body><pre>[Senate Hearing 114-301]
[From the U.S. Government Publishing Office]




                                                      S. Hrg. 114-301

         IRANIAN INFLUENCE IN IRAQ AND THE CASE OF CAMP LIBERTY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, OCTOBER 7, 2015

                               __________

         Printed for the use of the Committee on Armed Services


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









        Available via the World Wide Web: http://www.fdsys.gov/

                               __________


                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-721 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          

  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  
  
  
  
  
  
  
  
  
                              C O N T E N T S

                               __________

                       Wednesday, October 7, 2015

                                                                   Page

Iranian Influence in Iraq and the Case of Camp Liberty...........     1

Lieberman, Hon. Joseph I. Lieberman, Chair of Public Policy and 
  Public Service, Yeshiva University, and Former United States 
  Senator........................................................     4
Jones, General James USMC (Ret.), Chairman, Brent Scowcroft 
  Center on International Security, and Former National Security 
  Advisor........................................................     7
Martin, Colonel Wesley USA (RET.), Board of Advisors, U.S. 
  Foundation for Liberty, and Former commander, Forward Operating 
  Base Ashraf....................................................    15

Questions for the Record.........................................   112

Appendix A.......................................................   114

                                 (iii)

 
         IRANIAN INFLUENCE IN IRAQ AND THE CASE OF CAMP LIBERTY

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SH 09216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Sessions, 
Ayotte, Fischer, Cotton, Rounds, Ernst, Tillis, Reed, Manchin, 
Shaheen, Gillibrand, Blumenthal, Donnelly, Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Senator McCain. Well, good morning. The committee meets 
today to consider the issue of Iran's influence in Iraq and the 
case of the residents of Camp Liberty.
    I'm pleased to welcome this distinguished group of 
witnesses: Colonel Wes Martin, who retired from the U.S. Army 
in 2010 after a military career that concluded years of service 
in Iraq, where he was, among other positions, senior anti-
terrorism and force protection officer for coalition forces and 
commander of Forward Operating Base Ashraf; General Jim Jones, 
who has previously been National Security Advisor, Special 
Envoy for Middle East Security, Supreme Allied Commander, 
Commandant of the Marine Corps, and, most importantly, the 
marine liaison officer as part of a Navy team led by Captain 
John McCain.
    [Laughter.]
    Senator McCain. I can't make that up.
    [Laughter.]
    Senator McCain. Finally, it's with profound regret that I 
welcome back Senator Joseph Lieberman.
    [Laughter.]
    Senator McCain. Thank you for taking some time away from 
your bingo games at the old-folks home to join us today.
    [Laughter.]
    Senator Lieberman. Remember, we have a seat, you know, 
anytime you want to stop by. It's a lot of fun there.
    [Laughter.]
    Senator McCain. I like the blackout game.
    [Laughter.]
    Senator McCain. Anyway, I appreciate the chance for a 
little levity, because there's none to be found in the matter 
before us.
    As my colleagues know, Camp Liberty is the location in Iraq 
where more than 2,000 Iranian refugees currently live since 
they were internally relocated from their previous location at 
Camp Ashraf. The residents of the camp are dissidents who have 
long since opposed the regime in Tehran, at one time violently 
so.
    When United States forces entered Iraq in 2003, the 
residents of what was then Camp Ashraf renounced violence, gave 
up their weapons, and agreed to come under United States 
military protection as, quote, ``protected persons'' under 
Article 4 of the Geneva Conventions. For several years, the 
U.S. military provided security for the camp's residents. This 
responsibility ultimately transferred to the Iraqi government, 
and things took a turn for the worse, especially in the 
aftermath of the full withdrawal of United States troops from 
Iraq in 2011.
    In recent years, the residents of the camp have been the 
victims of frequent harassment, the decreased quality of life, 
hindered access to food and medicine, and rocket attacks, and 
violent raids that have resulted in the deaths of more 100 men, 
women, and children. Most of these attacks are reportedly the 
work of radical Iraqi military--militia groups and agents of 
the Iranian regime. It's our hope today that today's hearing 
can enhance the committee's understanding of several issues:
    First is the basic humanitarian element of this story. 
Whatever one thinks about the organization to which the 
residents of Camp Liberty belong, there is a basic standard of 
human dignity that must be upheld. The United States Government 
and military made a commitment to protect thousands of people 
who surrendered their weapons and came under our protection as 
a result. Clearly, this commitment has not been sustained. U.S. 
policy is now to assist in relocating the camp's residents to 
foreign countries, including the United States, and that goal 
deserves support. Until then, with United States forces now 
reengaged in Iraq, I hope our witnesses could address whether 
the Department of Defense could play any role to help improve 
life and security at Camp Liberty. This is not just a matter of 
our ideals, but also our interests. The group to which the 
residents of Camp Liberty belong has provided some very useful 
intelligence on Iran's nuclear program, specifically revealing 
the existence of covert Iranian nuclear activities. At a time 
when we need the best information on whether Iran is meeting 
its commitments under the Joint Comprehensive Plan of Action, 
the issue we are discussing today must be a consideration.
    Then there is the issue of U.S. credibility and whether our 
friends feel they can trust us. If we make our commitments, we 
must follow through. But, in this case, or in breaking promises 
made to Ukraine in the Budapest Memorandum or repeatedly during 
the ongoing conflict in Syria or in the concessions that were 
made to get the nuclear deal with Iran or other reasoned cases 
where our own red lines are crossed, it weakens our country, 
harms our friends, and emboldens our enemies.
    Finally, the case of Camp Liberty is symptomatic of a 
larger problem that we face in Iraq, and indeed across the 
Middle East. The problem of Iran's malign influence, which has 
been growing in recent years, in part due to a lack of an 
effective United States regional strategy to counter it. In 
Iraq, Syria, Lebanon, and Bahrain, Yemen, and elsewhere, the 
Iranian regime is arming, training, and, in some cases, 
fighting alongside militant groups that are destabilizing 
United States partners, threatening Israel, and seeking to 
establish forward outposts across the Arab world. Indeed, 
recent reports suggest that thousands of additional Iranian 
ground forces are moving into Syria to shore up the Assad 
regime as part of an anti-American coalition of Syrian, 
Hezbollah, and Russian forces. Despite crushing international 
sanctions, the Iranian regime has been able to expand its 
influence in Arab capitals across the region, most of all 
Baghdad. Thousands of radical militia fighters, backed and 
mostly controlled by Iran's Revolutionary Guard, are expanding 
Iranian influence in Iraq, often in the form of human rights 
violations and reprisal killings. We should fully expect the 
sanctions relief that Iran's rulers receive under the nuclear 
agreement to empower them to meddle further throughout the 
Middle East in ways that harm our national interests.
    It's more important than ever for the administration to 
work with Congress to develop a strategy that can weaken Iran's 
efforts to destabilize the Middle East and threaten our 
partners. I hope our witnesses today can offer some concrete 
ideas to assist the committee in that final--vital work.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    I want to welcome back the witnesses.
    It's great to see Senator Lieberman again, and thank him 
for his collegiality and kindness and friendship. Thank you 
very much. We are having a bit of back-and-forth recalling the 
many interesting circumstances and personalities that we miss. 
It's always good to see you, Senator.
    Thank you, General Jones, for your extraordinary service to 
the Nation as a marine, as the Supreme Allied Commander in 
Europe, and as someone that we all admire and respect 
immensely.
    Colonel Martin, thank you for your service, too, sir.
    So, thank you, gentlemen, for your testimony today.
    This morning, our hearing focuses on Iranian influence in 
Iraq and the plight of the nearly 2,400 residents at Camp 
Liberty, Iraq, members of the Iranian dissident group, the 
Mujahedin-e-Khalq, or MEK. The Iranians dissidents at Camp 
Liberty are in an increasingly perilous situation, having 
repeatedly come under attack. These attacks, which have killed 
more than 100 MEK members since 2009, clearly indicate the 
threat to this group from Iran and Iranian- backed militias 
seeking to eliminate and silence these dissidents.
    The deteriorating security situation of Iraq only 
highlights the urgent need to find safe refuge for these 
individuals outside the country. The United States has had a 
special relationship with the MEK, dating back to the height of 
the Iraq war in the mid-2000s. This stems, in part, from the 
MEK's agreement, at the United States military's request, to 
disarm and move into Camp Ashraf in northeastern Iraq. The U.S. 
military extended protections under the Geneva Conventions for 
Camp Ashraf residents. However, as the United States drew down 
its forces, consistent with its obligations under the 2008 
security agreement signed by President Bush and Prime Minister 
Maliki, U.S. Forces were no longer well positioned to provide 
for the safety and security of the Camp Ashraf residents.
    In December 2011, the Government of Iraq signed a 
memorandum with the United Nations in which the Iraq Government 
committed to ensure the safety and security of these residents 
as part of the process of relocating them to Camp Liberty 
outside Baghdad to facilitate the resettlement process. 
However, the United States, through the State Department, has 
had to repeatedly press the Government of Iraq to live up to 
its obligation to provide for the safety and well-being of the 
Camp Liberty residents. Camp residents remain in fear that the 
Government of Iraq will extradite them to Iran, at Tehran's 
request.
    The State Department now is the lead United States 
Government agency advocating on behalf of the Camp Liberty 
residents. The State Department is working with the United 
Nations assistance mission in Iraq and the United Nations High 
Commission for Refugees (UNHCR) to find resettlement options 
for these residents outside of Iraq.
    It is my understanding that, as of the beginning of this 
month, nearly 800 Camp Liberty residents have been processed by 
the UNHCR and resettled outside of Iraq. Unfortunately, this 
resettlement process has dragged on for years and much more 
still needs to be done to find homes abroad for the remaining 
Camp Liberty residents. I would urge all participants in the 
resettlement process to cooperate fully to advance the 
relocation of these very vulnerable individuals.
    One issue that I expect will arise this morning is whether 
the United States should accept more Camp Liberty residents for 
resettlement. While the MEK was removed from the U.S. list of 
foreign terrorist organizations in 2012, group members continue 
to be barred from admission to the United States because of 
their Tier 3 status under U.S. antiterrorism laws. Nonetheless, 
I understand that the administration has adopted a policy that 
would allow Camp Liberty residents to be paroled into the 
United States if they renounce their affiliation with the MEK. 
Under this policy, some 29 Camp Liberty residents have 
ultimately resettled in the United States, making the United 
States one of the larger recipient countries for these 
refugees.
    I hope the testimony of our witnesses this morning will 
help shine a light on what more can be done to accelerate the 
resettlement process so that the residents of Camp Liberty can 
be brought to safety outside of Iraq once and for all.
    Again, thank you, and welcome.
    Senator McCain. I welcome the witnesses. Maybe we could 
begin with you, Senator Lieberman.

 STATEMENT OF HON. JOSEPH I. LIEBERMAN, CHAIR OF PUBLIC POLICY 
   AND PUBLIC SERVICE, YESHIVA UNIVERSITY, AND FORMER UNITED 
                         STATES SENATOR

    Senator Lieberman. Thanks, Mr. Chairman, Senator Reed. 
Thanks very much for convening this hearing and for your 
opening statements.
    It would be easy to ignore the condition and plight of 
2,400 Iranians who are at Camp Liberty in Iraq. There's so much 
before this committee, there's so much disorder in the world. 
But, the plight of these 2,400 really involves some important 
considerations for our country.
    The first is, as you've said, What does a promise from the 
United States of America mean, particularly if it comes under 
local--that is, in Iraq--political pressure and the promise is 
reneged?
    The second is, What does the plight of these 2,400 Iranian 
dissidents, who are opponents of the dictatorial regime in 
Tehran; what does it say to us about larger policy questions 
for the United States in the region?
    So, I thank you, first, for holding the hearing. As I say, 
it would be easy to ignore, but it would be wrong to ignore. 
Secondly, thanks for your opening statements, both of which 
show a real understanding of what's happening at Camp Liberty 
and why it matters.
    Secondly, I'm honored to be here with General Jim Jones and 
Colonel Wes Martin. Both have served our country with great 
honor and courage and distinction. I'm also grateful to be with 
them because they are really experts at the history, here. To 
some extent, it allows me to speak more broadly about what I 
think the policy implications are of what's happening there.
    I thought, in the interest of time, it might be most 
helpful if I began, in terms of the background here, by quoting 
a statement from former attorney general and Federal judge, 
Michael Mukasey, at a public briefing on Camp Liberty on 
October 9th of 2013. It's quite direct and personal. He says, 
``The United States Government asked the MEK to move from 
Ashraf to Liberty, asked 3,000 people to move, and left 100 
behind, by agreement, to watch over the property that belonged 
to the people of Ashraf and the valuable installation there. 
The United States Government hinted that this was the price for 
removing the organization from the list of foreign terrorist 
organizations''--again, I'm quoting from Judge Mukasey--``a 
list on which it should never have been and was put on only 
because of an ill-conceived SOP to the Iranian government that 
didn't work.''
    Then Judge Mukasey tells a personal story. He says, ``I 
went along with Rudy Giuliani to Paris and met with Mrs. Maryam 
Radjavi,'' who's the head of the National Council of Resistance 
of Iran, also known as the MEK. ``We looked Mrs. Radjavi in the 
eye and asked her to cooperate in that move, and told her that 
she could trust the assurances of the United States Government. 
She agreed. It's hard for me to say that,'' Mukasey says, 
``without my voice breaking or without my conscience breaking. 
Those guarantees have not been fulfilled.'' As the United 
States Government withdrew, the Iraqis refused repeatedly to 
protect the residents, and repeatedly launched attacks. There 
were rocket attacks on Camp Liberty, and he goes on to talk 
about that, and then the attacks on Ashraf, which killed 52 of 
the hundred people who were remaining there.
    If you look at the history of these Iranian dissidents--you 
could call them ``freedom fighters''--in Iraq, you see that 
their status rises and falls, is secure and then is jeopardized 
based on the extent of influence that the Iranian government 
has in Iraq. That's why they've been treated like pawns in a 
much larger battle--struggle that now requires us again, 
through the State Department, as Senator Reed has said, to make 
it clear to the Government of Iraq, Prime Minister al-Abadi, 
that the status of the people in Iraq--in Camp Liberty really 
does matter to us, that they have to be protected, they have to 
be allowed to leave the country. If the Iraqi government can't 
do it, the United States Government should offer to do it until 
they can be taken safely out of the country.
    If you look at this story, you see a lot that may be 
obvious, but I just want to say it quickly, that distinguishes 
the current government of the Islamic Republic of Iran from a 
democratic government like our own. We've all got political 
opposition, we enter into campaigns, we battle back and forth, 
et cetera, et cetera. In the Islamic Republic of Iran, if 
you're the political opposition, the government is likely to 
try to put you in jail or, worse, to kill you. That's happened 
inside the country, as the human rights violations continue, 
but it's also happened with this particular group outside.
    There's a history here. I'm going to state it very 
summarily. This--the antecedent to this group, interestingly, 
began as a matter of principle in opposition to the Shah. They 
were fighting for more freedom from the Shah. They then 
actually joined--and again, I'm making a complicated story 
simple--with the revolution in the late '70s. Not so long after 
Ayatollah Khomeini came to power, they decided that the Shah 
had been replaced by a different form of dictatorship, of a 
religious dictatorship, and they went into opposition, and the 
government, ever since, has targeted them.
    I've come to know them very well. It seems to me that we 
ought to not only--it was right and just that we took them off 
the foreign terrorist organization list, but the truth is, now, 
that we ought to be supportive of them and others in opposition 
to the government in Iran more than we have been, because this 
group is not--not just because they're the enemy of our enemies 
in Tehran; these people are our friends. They have quite 
literally, as many of you know provided extraordinarily 
important intelligence to American forces in Iraq during the 
period after the overthrow of Saddam, they have been the source 
of some of the most credible information that we did not have 
from our own intelligence about the Iranian nuclear program, 
and they're--they believe in freedom. I mean, their leader--
it's quite remarkable, they're a moderate Muslim group, they're 
against the extremism of the current regime. They are quite 
refreshingly led by a woman who has put out a 10-point plan 
that embraces freedom of speech, separation of church and 
state, free elections, and a non-nuclear Iran.
    So, let me wind up with this--or conclude with this 
observation and, hopefully, suggestion. The Iranian nuclear 
agreement with Iran has been--is about to be executed. It's 
going to go into effect. What has struck me with a clarity is 
that the Islamic Republic of Iran, the Government of Iran, has 
compartmentalized this agreement. I think it's a bad agreement, 
but--and we'll see whether it actually is adhered to--but, 
whatever one things of the agreement, the Islamic Republic of 
Iran has sort of put it in a box, and they haven't changed 
anything else about their program. They've been very explicit 
about it. They're continuing to support terrorist groups 
throughout the region. Even before the nuclear agreement goes 
into effect, as Chairman McCain said, there--they made a deal 
with the Russians to move more aggressively into Syria to back 
Assad, who we have said we feel definitely has to go. They 
continue to say, ``Death to America.'' It's not just a chant. 
If you listen to the Ayatollah or others there, they're quite 
clear that they consider us to be their ideological, 
civilizational enemies.
    Here's my point, Mr. Chairman. We ought to compartmentalize 
that agreement also--that nuclear agreement. We ought to put it 
over there and not let it stop us from confronting what they're 
doing in Syria, continuing the sanctions for human rights 
violations in Iran and support of terrorism. Here's the point I 
want to make about the National Council of Resistance of Iran 
and other democratic opposition groups that are Iranian. We 
ought to be supporting them. This regime in Tehran is hopeless. 
It's not going to change. There's no evidence it's going to--
every piece of evidence is the contrary.
    So, I hope we can find a way--we used to do this, not so 
long ago, supporting opposition groups in Iran. They deserve 
our support, and actually they're a--they would constitute a 
form of pressure on the government in Tehran that would 
unsettle them as much as anything else we could do, because it 
would threaten the survival of the regime, which, from every 
objective indicator I can see, is a very unpopular regime in 
Iran.
    President Reagan provides an example, here. He was 
negotiating--his administration was negotiating nuclear arms 
agreements with the former Soviet Union, but that did not stop 
us during that period of time from supporting the Refuseniks in 
Russia, the Solidarity Freedom Movement in Poland, and on and 
on. I think it's time for us to do that in Iran. There's no 
better place to begin than by securing the residents of Camp 
Liberty and assuring their safe passage away from the Iranian 
thugs.
    Thank you, Mr. Chairman.
    Senator McCain. Thank you.
    General Jones.

STATEMENT OF GENERAL JAMES JONES, USMC (RET.), CHAIRMAN, BRENT 
SCOWCROFT CENTER ON INTERNATIONAL SECURITY, AND FORMER NATIONAL 
                        SECURITY ADVISOR

    General Jones. Thank you, Mr. Chairman. Thank you for 
recalling our days together in the Senate Liaison Office in 
1979 and--it was a--beginning of a 5-year period for a young 
major of the Marines who was lost in the Senate of the United 
States. I had no idea why I was assigned over here. I had no 
idea what I was supposed to do. Captain McCain helped me a 
great deal, and the Senate staff, who became friends over my 5-
year tour here. I actually went over to the Marine Corps 
Headquarters, reminded them that I was still over here, because 
I thought they had lost my file and----
    But--and then the privilege of coming back as Commandant of 
the Marine Corps and Commander of NATO, working with the 
committee and the staff, was certainly a highlight of my life. 
Although I have nothing but fond recollections of it, I'm very 
sorry that we're here today talking about something that I 
think should have been taken care of a long time ago.
    So, I'm honored to be with Senator Lieberman and Colonel 
Wes Martin----
    Senator McCain. May I also say that you served 
distinction--with distinction as the President's National 
Security Advisor, as well, General.
    General Jones. Thank you. I haven't forgotten that.
    [Laughter.]
    General Jones. With Ambassador Linc Bloomfield, also, whose 
work has--I would recommend for anyone who wants to understand 
the full history of the MEK and the Iran/Iran relationship. 
It's--it should be required reading. It's--it--I have copies of 
it here. Linc has done a wonderful job.
    I'm--I want to thank you for holding this important 
hearing; in particular, thank you for focusing a long- overdue 
focus on the plight of approximately 2,500 refugees who still 
languish at Camp Liberty in Iraq. They--and this is a group, as 
Senator Lieberman pointed out, to whom our country made a 
solemn and, I'm sorry to say, still unkept promise years ago.
    The committee has my statement on the topic of the Iranian 
refugees in Iraq, detailing the outrageous campaign of 
harassment, intimidation, and murder visited upon them at the 
behest of the Iranian regime and with the complicity of the 
Iraqi government. So, I'd like to just briefly highlight 
several key points, first on the larger topic of Iran's 
influence and objectives in Iraq, and then address the related 
matter of the refugees' ongoing tragic situation.
    It will surprise no one when I say that the Iranian regime 
remains among the world's most consistent threats to global 
peace and stability, as Senator Lieberman just eloquently 
pointed out. It's a regime that artfully dodges its 
commitments, generates international friction to exert greater 
domestic control on its citizens, and constantly hardens its 
grip on its country. The Tehran government seriously violates 
human rights, United Nations (U.N.) Security Council 
resolutions, and international law. It rejects the right of 
Israel to exist by both opposing and actively undermining any 
and all Middle East peace processes. The mullahs remain the 
chief antagonists of democracy and liberalization across the 
Middle East, where a better future for millions of people 
struggle to emerge. To them, human rights, the rule of law, 
international norms of responsibility and modernity are threats 
to be snuffed out rather than virtues to be embraced. Its 
retrograde doctrine is one of power, dictatorship, and 
domination over its people in the region, no matter the human 
cost.
    The Iranian regime knows that the fall of Assad and the 
loss of Syria as a client state would be an enormous strategic 
loss. It continues to do everything within its power to avert 
that end and to pursue its hegemonic ambitions, in part by 
supporting international terrorist organizations and--that pose 
clear and direct threat to the United States and our friends 
and allies. Unquestionably, Iran's grand strategy, one that 
constitutionally compels it to export its brand of Islamic 
revolution, entails consolidating the hold it has gained in 
Iraq, a grip it seeks to tighten, both directly and through 
proxies, by widening the sectarian divide that has been such a 
gross impediment to the brighter future for which the Iraqi 
people, the United States, and our allies have sacrificed so 
much.
    I recall, early in this administration, King Abdullah of 
Saudi Arabia and his warning to our Government that then- Prime 
Minister Maliki was, quote, ``not our friend,'' but, rather, an 
Iranian sympathizer under Tehran's influence. He has been 
proven right, unfortunately for us and for the entire region.
    What might not be as well known is that part and parcel of 
Iran's subversive program in Iraq has been the persecution of 
nearly 3,500 Iranian objectors to the region housed first at 
Camp Ashraf and now at Camp Liberty. The timeline provided to 
the committee tells a grim story. Colonel Martin, testifying 
here today, commanded the unit in charge of protecting the 
refugees at Camp Ashraf as part of Operation Iraqi Freedom. No 
one knows more about the antecedents and the course of this 
tragic situation than he and Ambassador Linc Bloomfield, who is 
also here today and who I mentioned just a few minutes ago.
    Ambassador Bloomfield has a statement on the MEK that I 
respectfully request be made part of the record.
    [The information referred to follows:]

                Statement of Lincoln P. Bloomfield, Jr.
       ``iranian influence in iraq and the case of camp liberty''
    Chairman McCain, Ranking Member Reed, members of the Committee, 
thank you for the opportunity to share my views with the Committee. I 
am a former national security and foreign policy official who served in 
the Departments of Defense and State as well as the Office of the Vice 
President during five previous Administrations. Since 2008 I have 
served as Chairman of the Stimson Center, a non-partisan security think 
tank. The views I express today are my own.
    Since 2011 I have studied the Iranian resistance in detail, and 
specifically allegations and commonly-held beliefs that the MEK was a 
terrorist group in decades past, responsible for killing Americans in 
Tehran during the 1970s, and that the people at Camp Liberty constitute 
a mysterious and untrustworthy cult. One result of this widespread 
mindset is that some if not all of the diplomatic effort to end the 
plight of the Camp Liberty residents has appeared somewhat grudging and 
colored by a sense that the residents are responsible for their own 
predicament, and thus a lesser priority than many other urgent 
challenges occupying US attention in Iraq.
    The information that follows, now in the public domain, is steadily 
changing the way the residents of Camp Liberty, the MEK, and the Paris-
based National Council of Resistance are being viewed, along with 
Iran's strategic circumstances and priorities. What I learned is that 
no connection has ever been made between members of today's Iranian 
resistance--at Camp Liberty, in Paris, or anywhere else--and the 
foreign-trained secular leftists who assassinated six Americans in 
Tehran in the 1970s. This, the most prejudicial allegation against the 
MEK, has been investigated and debunked. Even the Department of State, 
in its 2005 edition of Country Reports on Terrorism, cited a ``Marxist 
element'' that conducted these murders in its unsuccessful attempt to 
split away and re-brand the ``people's Mojahedin'' for its own 
purposes. That brief clarification was omitted from the report after 
2005.
    Indeed, every allegation of terrorism ever cited in these annual 
reports during the 19 years since the inaugural 1993 publication has 
been mischaracterized, exaggerated or misstated. Judicial review in the 
United States, the United Kingdom and France has led to the MEK's 
exoneration and removal from all terrorism lists in the West including 
the US, UK, EU, Canada and Australia. The French magistrate who 
investigated the resistance for eight years concluded in 2011 that 
``the dossier does not contain any evidence indicating an armed 
activity that would intentionally target civilians. If such evidence 
were available it would confirm terrorism and would annul any reference 
to resistance against tyranny.'' The UK Supreme Court of Judicature 
Court of Appeal, while removing the MEK from Great Britain's terrorism 
list in 2008, said this: ``The reality is that neither in the open 
material nor in the closed [classified] material was there any reliable 
evidence that supported a conclusion that PMOI retained an intention to 
resort to terrorist activities in the future.''
    Washington officials, analysts and journalists in recent years have 
become accustomed to thinking of the MEK as a secretive terrorist cult 
with American blood on their hands going back to the 1970s and the 
hostage crisis. But more than three decades ago, in 1984, the State 
Department wrote to Congress that the MEK's ideology was ``a major 
source of the group's popularity in Iran,'' presenting a detailed 
program on domestic and foreign issues ``as a dynamic response to the 
problems of modern Iran.'' The State Department described the MEK's 
goal as ``providing a popular voice in all aspects of national life 
through a `truly democratic power structure.' 1A'' In fact, from its 
inception a half-century ago, the MEK, including the men and women at 
Camp Liberty, has had far more in common with Americans, and democratic 
ideals, than anyone serving the clerical regime they have steadfastly 
opposed in Tehran.
    This is the group in Iran most identified with the century-long 
push for democratic, representative government in Iran. Starting with 
the 1906 constitutional revolution and the mid-century nationalist 
movement that ended in 1953 when the CIA deposed Prime Minister 
Mohammed Mossadegh, student intellectuals have sought to bring Iran's 
politics into the modern era, with the same rights and citizen 
responsibilities that people elsewhere have demanded and successfully 
gained.
    Who are these men and women in Camp Liberty? If the Committee 
Members look around the hearing room, they will see a lot of Iranian-
Americans sitting patiently, grateful that the Committee is seeking to 
understand the long road they have traveled. Many are successful 
Americans who appreciate the blessing of representative government more 
than most of us can ever understand.
    Ask anyone supporting the resistance how they got involved and why 
they are so willing to sacrifice their time, money and comfort--
particularly the residents of Camp Liberty. You will hear a similar 
story over and over again. Someone in their family in years past 
supported the Mojahedin's effort within Iran to promote popular 
sovereignty, and was arrested, tortured and executed. I have 
interviewed countless Iranian-Americans from all over our country and 
in Europe, and to a person each has a story of grievous loss, friends 
and loved ones brutally killed in the prime of their lives. Many have 
endured cruelty in prison as punishment for acts protected in our 
country by the First Amendment.
    Tens of thousands of Iranians--women no less than men--teens and 
even children, have gone to their deaths simply for refusing to 
renounce their affinity for a brave movement that opposed the Shah's 
brutal suppression of political and human rights after 1963 and then 
refused in 1979 to endorse Ayatollah Khomeini's constitutional formula 
for religious dictatorship.
    The fundamentalist regime in Tehran has held onto power for 36 
years by coercion, intimidation and brute force. Iran's first and only 
legitimately elected president, Abolhassan Bani-Sadr, along with MEK 
leader Massoud Rajavi, campaigned against dictatorship and brought 
eight million supporters into the streets of Iran's cities in June 
1981; Ayatollah Khomeini responded with a reign of terror, and the two 
barely made it out of the country alive. That is the story behind the 
MEK's armed resistance, and it helps explain why the regime has allowed 
fewer than 10 percent of registered candidates for President to run in 
the ten elections since 1980--fewer than 2 percent in the elections 
since 1993.
    President Rouhani, often described as a moderate, started his 
recent U.N. General Assembly speech referring to his mandate in a 
``competitive election,'' yet in 2013 he was one of just eight 
candidates permitted to run; 678 registered candidates were disallowed 
from running. His Minister of Justice was directly implicated in the 
mass execution of 30,000 jailed dissidents in the summer of 1988 and 
would surely face charges of crimes against humanity in a western 
tribunal. Iran under President Rouhani is on a pace to execute 1000 
people this year--about 3 a day--mostly people suspected of having 
anti-regime sympathies. Others are said to disappear without any 
official disclosure.
    If this narrative seems far afield from the subject of Camp Liberty 
and Iran's influence in Iraq, that is only because Iran has succeeded 
in obscuring our perspective of its war against any who would challenge 
it politically. Iran backs Syria not because it favors Bashar al 
Assad's secular politics but because he turned his guns against the 
Syrian people to prevent the Arab spring from taking hold in 2011. The 
clerics understood that the mass movement for political rights could 
spread quickly to Tehran as it had in 2009 after the fraudulent 
elections.
    Iran's big problem is not financial or military, but political: the 
regime suffers from a lack of legitimacy, dating back to the bloodbath 
of June 1981 and the enormous toll since then of executed dissidents. 
Its greatest fear is the growing appetite among educated people in the 
region for constitutional, rights-based governance--precisely what the 
United States is supposed to be facilitating. The sectarian warfare 
promoted by former Iraqi Prime Minister Maliki and Qods Force Commander 
Qasem Suleimani, directing Shiite militia attacks on Sunni cities and 
towns, is meant to prevent any possible reconciliation of Shia and 
Sunni communities in Iraq. As Sunnis become more inflamed and 
radicalized, American influence and leverage is diminished.
    Upwards of 200 of the Camp Liberty residents have Iraqi terrorism 
charges levied against them during Prime Minister Maliki's tenure. 
There is no due process; this represents Iran's short list of 
individual dissidents Tehran wants to take into custody, to face the 
mullahs' brand of justice. By now it should be clear that Iran does not 
want the Camp Liberty residents ever to reach freedom in the west, 
where they can tell their stories, as many have already since reaching 
safety in Albania.
    In sum, the truth behind these men and women at Camp Liberty is 
entirely different from what most of us have heard from our government 
and analysts discussing the MEK. We now know that the many terrorist 
designations and law enforcement actions in the West were done at the 
specific request of Iran, as a quid pro quo for various western 
priorities.
    It must be very stressful for these people, knowing they face risks 
of death and injury every day and yet enduring these hardships to honor 
brothers and sisters who paid with their lives for a more just and 
democratic Iran one day.
    How much more stressful must it be knowing that America has not 
upheld its promise of protection, expeditious refugee processing, and 
living conditions meeting at least minimum humanitarian standards?
    How do they feel having been assured by us and the U.N. that the 
fruits of 25 years of effort by thousands at Camp Ashraf would be 
protected, only to have the stay-behind contingent brutally bound, 
gagged and murdered by elite Iraqi forces, hostages taken, and their 
assets pillaged?
    What must they think of our government when they are told that we 
might consider bringing them to safety here in the United States, but 
only if they renounce everything for which they, their loved ones, and 
so many before them have made such extraordinary sacrifice?
    And yet, fifty years of enduring these and many other hardships and 
indignities has only made the resistance and its many supporters around 
the world more resilient, more committed, and more confident that the 
nightmare in Iran cannot and will not endure. These are extraordinary 
people, and every one of them has a worthy story to tell. If we are to 
improve our understanding of Iran--and it should be clear that there is 
room for improvement--we can learn much from these people. First, 
however, we must recognize how our understanding has been distorted by 
regime misinformation, bring all of the Camp Liberty residents to 
safety, and thereby restore a principled policy and American 
credibility. I thank the Committee for inviting my perspective.

    Senator McCain. Without objection.
    General Jones. Allow me to briefly hit some strategic 
highlights about this tragic matter.
    The MEK is a group that has consistently opposed the 
Iranian regime and resided at Camp Ashraf since 1986. During 
Operation Iraqi Freedom, the group welcomed American troops, 
voluntarily disarmed themselves, cooperated with the coalition 
willingly and fully, and aided us by providing highly 
significant intelligence, and, as Colonel Martin will point 
out, by helping to protect U.S. Servicemembers. In exchange, 
the United States promised to ensure the refugees' safety and 
protection. This solemn obligation transferred to the Iraqi 
government as part of its sovereign commitments in the terms of 
the 2009 United States-Iraq Status of Forces Agreement.
    As you will see from the timeline, what followed these 
commitments has been a litany of bloodshed and mistreatment at 
the bidding of the Iranian regime, with the complicity and 
elements of the Iraqi government all too eager to accommodate 
Iranian wishes.
    I would note for the committee the three most lethal 
events: the ground assault on Camp Ashraf that took place in 
July 2009 in which 12 unarmed residents were killed, another 
attack in April 2011 in which 36 unarmed residents were killed, 
and a third attack in September 2013 in which 52 unarmed 
residents were killed. Many of these were captured on video, 
which can be provided to the committee if you so desire to see 
them. Again, Mr. Chairman and members of the committee, the 
victims were unarmed men, women, and children who we promised 
to protect, a duty vested in the Government of Iraq upon our 
departure.
    Despite these atrocities, we have remained slow, 
ineffective, and sometimes even reluctant in responding to our 
humanitarian obligation to facilitate the swift relocation of 
refugees out of harm's way. Unfortunately, this is exactly 
where the vast majority of refugees remain, at Camp Liberty and 
in harm's way. We can get into all the factors that have been 
held up--that have held up humanitarian relocation. In part, 
it's been complicated by the hesitancy of some refugees to 
leave brethren behind at risk or to renounce their association 
with a group which was removed from the United States and 
European terrorist list over the course of time.
    Primary problem, however, has been our slow and seemingly 
indifferent response to our commitments and to the refugees' 
perilous situation. Legal impediments have been erected and 
allowed to let stand. Some may wish to debate them or the 
group's history and structure. We can certainly have these 
discussions. But, Mr. Chairman and members of the committee, 
none of it will distract from what remains the primary fact and 
our chief duty, to find the legal means and the moral courage 
to fully aid a group of people who have cooperated with us, who 
have helped us and protected us, and who promised to protect--
and who we promised to protect, and who remain in mortal danger 
in spite of such a large and growing bipartisan chorus in our 
country calling for action.
    Before further tragedy ensues, we can and we must meet our 
duty by expeditiously accepting an appropriate number of the 
remaining refugees here under fair and responsible terms, by 
exercising our leadership to get allies to do the same, and, 
above all, by keeping a solemn promise we made to our friends 
of the United States. That is what a good and great country 
does.
    Congressman--former Congressman Lee Hamilton made a 
stirring speech, about 2 years ago, in which he recited Mrs. 
Radjavi's 10-point plan for the future of Iran. I won't read 
the--read it, but let me just give you the highlights of the 10 
points. First is democracy, pluralism, abolishment of the death 
penalty, separation of church and state, gender equality, rule 
of law, human rights, respect for private property, peaceful 
coexistence, and a nuclear- free state. Congressman Hamilton 
looked up at the audience and said, ``What's wrong with that?''
    Thank you, sir.
    [The prepared statement of General Jones follows:]

       Prepared Statement by General James L. Jones, USMC (Ret.)
    Mr. Chairman, Ranking Member Reed, and Members of the Committee, 
thank you for holding this important hearing on Iran's influence in 
Iraq--and its implications for the people of Iraq, the stability of the 
Middle East, and for America's interests and values.
    In particular, thank you for providing long-overdue national focus 
on a related topic--the plight of approximately 2,500 Iranian refugees 
who continue to languish in great danger at Camp Liberty in Baghdad.
    The People's Mujahedin of Iran (referred to as MEK or PMOI) are 
exiles from Iran who have lived in Iraq since the mid-1980s. They 
oppose the regime in Tehran which has helped facilitate a campaign of 
harassment, intimidation, and murder against their encampment with the 
complicity of Iraqi authorities--despite America's promise to protect 
the men, women, and children of Camp Ashraf, now residing at Camp 
Liberty.
    Before addressing this ongoing humanitarian tragedy in greater 
detail, I would like to briefly address the larger hearing topic of 
Iran's influence and objectives in Iraq. It will surprise no one when I 
say that the Iranian regime remains among the world's most consistent 
threats to global peace and stability.
    It is a regime that artfully dodges its commitments, generates 
international friction to exert greater domestic control on its 
citizens, and constantly hardens its grip on the country. The Mullahs' 
government serially violates human rights, U.N. Security Council 
resolutions, and international law. They reject the right of Israel to 
exist by opposing and actively undermining the Middle East Peace 
Process. Tehran remains the chief antagonist of democracy and 
liberalization across the Middle East where a better future for 
millions of people struggles to emerge.
    To the Mullahs, the concepts of human rights, rule of law, 
international norms of responsibility, and modernity are threats to be 
snuffed out, rather than virtues to be embraced. Their retrograde 
doctrine is one of power, dictatorship and domination over its people 
and the region, no matter the human cost. Its goal is the consolidation 
of the revolution which is martially enforced at home by the Islamic 
Revolutionary Guards Corps and prosecuted abroad by the Quds Force and 
Iran's many proxy groups.
    The Iranian regime knows that the fall of Assad and the loss of 
Syria as a client state would be an enormous strategic loss. It 
continues to do everything within its power to avert that end, and to 
satisfy its hegemonic ambitions--in part, by supporting international 
terrorist groups that pose a clear and direct threat to the United 
States and our allies.
    Unquestionably, Iran's grand strategy--one that constitutionally 
compels it to export its brand of Islamic Revolution--entails 
consolidating the hold it has gained in Iraq--a grip it seeks to 
tighten, directly and through proxies; and by stoking the sectarian 
fires that have been such a gross impediment to the brighter future for 
which the Iraqi people, the United States, and our allies have 
sacrificed so much.
    I recall early in this administration, King Abdullah of Saudi 
Arabia's warning to our government that then-Prime Minister ``Maliki 
was not our friend''; but rather an Iranian sympathizer under Tehran's 
influence. He has been proven right, unfortunately for the region.
    Maliki may be gone but the Iranian tentacles are not. In fact, the 
fight against ISIL (Islamic State of Iraq) has given Iran a new pretext 
for extending its reach. We would be wise not to forget that Tehran 
isn't interested in fighting ISIL to stop it from imposing an extreme 
brand of Islam through barbarity and manipulation in Syria, Iraq and 
elsewhere. The Mullahs are only interested in stopping ISIL from 
getting in the way of Iran sustaining a client state and imposing its 
brand of Islamic extremism through violence and manipulation.
    Recently Assad hailed the ``Russia, Iran, and Iraq alliance'' in 
battling terrorism. I would submit that an Iraq being torn asunder by 
ISIL and dominated by Iran; an Iraq that has become a regional focal 
point of instability in the Middle East; and an Iraq that is allied 
with Assad, Putin, and the Grand Ayatollah is not the vision the United 
States and our allies head when we freed the country from the yoke of 
Saddam Hussein. It's not why nearly 4,500 American service members paid 
the ultimate sacrifice and tens of thousands more wounded. It's not the 
future the majority of Iraqis had hoped for and deserve.
    This committee knows well the financial and kinetic powers that 
Iran wields to exert its influence and you know the basic tenets of its 
strategy to export revolution. You know the grave implications of 
Iranian efforts to shore up the Assad dictatorship and to prosecute the 
malignant Shiite-Sunni conflict in Iraq and foster its reach in 
Lebanon, Gaza, and Yemen. What is not as well know is that part and 
parcel of Iran's subversive program in Iraq has been the persecution of 
nearly 3,500 Iranian objectors to the regime housed first at Camp 
Ashraf in Diyala Province and now at Camp Liberty in Baghdad.
    The timeline accompanying today's testimony tells the grim story. 
Colonel Wes Martin, testifying here today, commanded the unit in charge 
of protecting the refugees at Camp Ashraf as part of Operation Iraqi 
Freedom.
    No one knows more about the antecedents and course of this tragic 
situation than Colonel Martin and Ambassador Lincoln Bloomfield. The 
ambassador is here and can be a great resource to you on the issue. He 
has prepared a statement on the MEK that I respectfully request be made 
part of the hearing record.
    As Ambassador Bloomfield has chronicled in his extensive study, 
this is a group that has consistently opposed the Iranian regime and 
resided at Camp Ashraf in Iraq since 1986. During Operation Iraqi 
Freedom the group welcomed American troops, voluntarily disarmed, 
cooperated willingly and fully, and aided us by providing highly 
significant intelligence--and as Col. Martin points out--by helping 
protect United States service members.
    In exchange, the United States promised to ensure the refugees' 
protection. This solemn obligation transferred to the Iraqi government 
as part of its sovereign commitments and the terms of the 2009 United 
States-Iraq Status of Forces Agreement.
    As the timeline shows, what followed these commitments has been a 
litany of bloodshed and mistreatment at the bidding of the Iranian 
regime complicit with elements of the Iraqi government all too eager to 
accommodate Iranian wishes.
    I would just emphasize for the Committee the three most lethal 
events: a ground assault on Camp Ashraf that took place on July 2009 in 
which 12 unarmed residents were killed; another attack in April, 2011 
in which 36 unarmed resident were killed; and a third attack in 
September, 2013 in which 52 unarmed residents were killed.
    Colonel Martin's testimony covers many other episodes of 
mistreatment and threat inflicted on the MEK during their tenure at 
Camp Ashraf and over the course of their time at Camp Liberty, formerly 
known as Camp Hurriya. Let me stress again Mr. Chairman and Members of 
the Committee: the victims were unarmed men, women, and children that 
we promised to protect--a duty vested in the Government of Iraq upon 
our departure.
    Despite these atrocities the United States has remained slow, 
ineffective, and even reluctant, in responding to our humanitarian 
obligation to facilitate the swift relocation of the refugees out of 
harm's way. Unfortunately, this is exactly where the Camp Liberty 
refugees remain today--in harm's way.
    We can get into all the factors that have held up humanitarian 
relocation. In part it has been complicated by the hesitancy of some 
refugees to leave brethren behind at risk, or to renounce their 
association with the group which was removed from United States and 
European terrorist lists--a step that required exacting standards and 
findings.
    The primary problem, however, has been our government's exceedingly 
slow and seemingly indifferent response to our commitments and the 
refugees' dangerous situation. In part, it's the product of a complex 
set of legal circumstances and interpretations that have been allowed 
to impede our receiving a fair number here.
    As I mentioned, MEK was once listed as a Tier 1 foreign terrorist 
organization but our government delisted it several years ago and 
Europe delisted it years before. Nevertheless, the Department of 
Homeland Security now considers the MEK to be a Tier III entity on the 
basis of its past FTO (foreign terrorist organization) designation, 
even though Tier III entities are defined as any group ``which engages 
in'' [note the use of the present tense] a variety of terrorist 
activity.
    As I understand it, Tier III organizations are not specifically 
listed by any United States agency, but rather are determined on a 
case-by-case basis. DHS (Department of Homeland Security) apparently 
has taken the position that it will consider every resident in Camp 
Liberty to be barred from admission to the United States for one or 
more of the following reasons:

    <bullet> &The individual was a member of a Tier I designated 
organization during the period of its designation,
    <bullet> &The individual is currently a member of a Tier III 
entity, or
    <bullet> &The individual was or is co-resident with MEK members and 
thus provided ``material support'' to a Tier I organization during its 
period of designation (i.e. at some point between 1997  09 2012) or to 
a Tier III entity now.

    Further I'm informed that DHS has offered to consider the admission 
of persons who would (a) renounce any affiliation with the MEK, and (b) 
promise not to provide material support of any kind to the group (this 
could include advocating for U.S. political support of the MEK or 
NCRI).
    Apparently if a person agrees to renounce the MEK and any future 
support, but is later found to have violated this commitment (even if 
unwittingly, e.g. by providing or accepting material support to or from 
a MEK member), then that refugee is vulnerable to deportation back to 
his or her country of origin--in this case, Iraq or possibly even Iran.
    According to legal counsel there are at least two ways to solve 
this dilemma. DHS could exercise discretion by not designating the MEK 
as a Tier III entity. Thus persons currently affiliated with the group 
could be considered for admission without having to renounce any future 
membership or contact with the organization or its members. 
Alternatively, Congress could enact legislation expressly removing the 
MEK from the Tier I  09 III designations for the limited purpose of 
refugee admissibility of persons affiliated with the group; all other 
requirements for refugee admissibility would still apply.
    I'm not a lawyer. While some may wish to get hung up on the legal 
complexities, others will want to debate the group's history and 
structure. We can certainly have those discussions.
    What we know is that a lot of things we thought were true about the 
MEK for many years have been investigated in detail, and turn out to be 
untrue or greatly exaggerated. But history aside, even the State 
Department since 2012 has made clear that the National Council of 
Resistance and its affiliate, the MEK, are entirely political in 
character, and have been engaged in political opposition activities for 
the past 14 years at least.
    It is time our government realized that the Iranian resistance has 
been misunderstood for many years in Washington due to false 
information, and they should be treated the same as our government 
would treat the political opposition from any country. If there are 
separate rules that should apply to the MEK, they should be 
preferential, not punitive measures, reflecting the fact that the 
resistance was the first to reveal Iran's secret nuclear enrichment 
activities in 2002 and then they turned over all their weaponry to 
American forces in 2003 in return for a commitment from the United 
States under international law that they would be protected. Every time 
we have fallen short of fulfilling this commitment, our country's 
reputation has been diminished, and Iran's regime has gained leverage 
against voices calling for democratic reform.
    None of the falsehoods, distortions, or legal disputes can distract 
from what remains an irrefutable obligation: to aid a group of people 
who have cooperated with us, who have helped us, who protected us, who 
we promised to protect, and who remain in mortal danger. That's why 
such a large and growing, bi-partisan chorus continue to call for 
action.
    Before further tragedy ensues, we can and we must meet our duty by 
expeditiously accepting an appropriate number of the remaining refugees 
here under fair and responsible terms; by exercising our leadership to 
get allies to do the same; and, above all, by keeping a solemn promise 
we made to friends of the United States before further bloodshed is 
visited on unarmed, vulnerable people. Keeping our promises is what 
good and great countries do.
    Again, thank you for the opportunity to testify today. I'm 
confident that with your insistence we can and will do what's right.

    Senator McCain. Colonel Martin.

   STATEMENT OF COLONEL WESLEY MARTIN, USA (RET.), BOARD OF 
ADVISORS, U.S. FOUNDATION FOR LIBERTY, AND FORMER 1ACOMMANDER, 
                1AFORWARD OPERATING BASE ASHRAF

    Colonel Martin. Chairman McCain, Ranking Member Reed, and 
members of the committee, I thank you for this opportunity to 
address the situation endured by the residents of Camp Liberty, 
Iraq.
    Having served as the senior antiterrorism officer for all 
coalition forces Iraq and as the base commander of Camp Ashraf, 
where the residents were located before resettlement to Camp 
Liberty, I came to know and understand them very well. When I 
was outside the perimeter in missions with the residents, I 
found them to be a solid ally. Inside the perimeter, I found 
them to be a major learning opportunity.
    While serving as the Ashraf base commander, I personally 
witnessed the residents doing everything possible to protect 
and support the soldiers and the marines assigned to my base. 
They provided critical intelligence that helped reduce danger 
to American service members. Without their help, I have no 
doubt that many Americans would not have survived their tour of 
duty. That is a debt that we can never repay to these fine 
people.
    Even concerning logistics, when we were running short of 
water, the residents pumped 50,000 gallons of water to us every 
day. There was never-ending cooperation between the residents 
and the Americans. With pride, every resident carried a 
Protected Person identification card issued to them in 2004 by 
the United States Government.
    The MEK was an intelligence source that we didn't learn 
fully how to use for a long time, even though they were willing 
to share the information. Their relationships in the local area 
were bringing in continual reports of al-Qaeda, Badr Corps, and 
Mahdi army activities throughout the region. Not until the 
arrival of the Marine Corps Human Exploitation Team were we 
able to get the information properly into the intelligence 
network.
    In 2009, the Protected Person Status was revoked without 
warning, and security of the residents was turned over to the 
Government of Iraq. The United States and the Iraqi governments 
provided written assurances that the residents would be treated 
with full security and full humanity. As you are aware, that 
has not been the case. Three ground attacks at Ashraf and three 
rocket attacks at Camp Liberty have resulted in 117 residents 
killed, every one of them a holder of those Protected Person 
Status cards.
    Per agreement worked out with the Government of Iraq, 100 
residents were approved to remain at Ashraf to serve as 
property custodians when the rest of the residents moved to 
Camp Liberty. The 2013 ground assault resulted in the murder of 
52 property custodians and the kidnapping of 7 others. At this 
point, let me leave no doubt, per my investigation, there is--
the Iraqi government was fully involved, and the Iraqi 
government conducted those murderous assaults, to include the 
2013 massacre.
    Senator McCain, it's my understanding Governor Tom Ridge 
has provided you a copy of this document.
    Senator McCain. He had.
    Colonel Martin. Since the residents relocated to Camp 
Liberty psy-op initiatives by the Iraqi government and the 
Iranian governments have reoccurred. Most recent took place 
within the past month, causing the residents scheduled for 
relocation to Albania to decline safe passage in the face of 
clear danger to their fellow residents remaining in harm's way. 
Although it is possible to criticize the residents' actions 
after much effort to arrange their safe exit from Iraq, it is 
understandable that those bearing tickets to safety would feel 
guilty about abandoning their fellow exiles to a fate suggested 
by the same menacing harassment that preceded previous 
slaughters.
    On a daily basis, Liberty residents endure numerous forms 
of harassment. Camp Liberty was never intended to house people 
24 hours a day. It was an area for American soldiers to rest 
when off duty. The infrastructure was never intended to last 
long and support so many people consolidated into such a closed 
area. The T walls that provided shelter from rocket attacks 
were removed after the residents arrived at the camp. Despite 
what is claimed, the residents never wanted those walls 
removed. The sewage tanks are rupturing. Preapproved logistical 
support items purchased at very inflated prices are being 
denied entry into the camp. Artificial delays in being escorted 
to local hospitals result in missed appointments. Several 
deaths have occurred due to denial of access to medical 
service. There have been at least two food blockades. Their 
vehicles are breaking down, and replacement parts are forbidden 
entry. Freon and parts for refrigeration are not being allowed 
into the camp. The harassments continue. They're not being 
allowed to sell their Ashraf property, as was agreed by the 
U.N., the United States, and the Iraqi government.
    Senator, the residents of Camp Liberty have asked me to 
provide this book to be included in the record of the hearing. 
It's titled ``Property in Ashraf.''
    Senator McCain. Without objection.
    [The information referred to follows:]

    Due to the sensitive nature of this book and additional documents 
provided to the Committee. Please contact the Committee's Security 
Manager for access.

    Colonel Martin. Thank you, sir.
    As Iraq and the surrounding region face deeper crisis, 
there remains the possibility that Camp Ashraf residents can 
avoid becoming further casualties in the Iranian-directed 
aggression, but time is surely not on their side. Secretary 
Kerry has the authority to accept the residents into the United 
States without them having to renounce the MEK. The claim that 
they were once members of a terrorist organization is now 
widely understood and documented to have been the result of 
diplomatically inspired designations in the United States and 
allied countries, all of which have been fully investigated and 
undone by judicial and scholarly review.
    As I close, concerning the future of the residents, former 
Special Representative for the United Nations, Secretary 
General for Iraq Ad Melkert, stated it best, ``Hardly has a 
humanitarian issue been politicized as much as this one, yet 
already for many years the victims are not the players. It is 
essential for the international community to understand this 
and, thus, consider it a duty to intervene in defense of 
international law and human rights, regardless of political 
interest or bias. This, therefore, should be the moment for 
government and lawmakers to step up and let reason and 
compassion prevail.''
    Senator, thank you.
    [The prepared statement of Colonel Martin follows:]

              Prepared Statement by Colonel Wesley Martin
    Chairman McCain, Ranking Member Reed, and Members of the Committee, 
I thank you for this opportunity to address the situation endured by 
the residents of Camp Liberty, Iraq. Having served from 2003 through 
2004 as the Senior Anti-Terrorism Officer for all Coalition Forces in 
Iraq, from 2005 and into 2006 as the Senior Operations Officer for Task 
Force 134 (Detention Operations), and in 2006 as the Base Commander of 
Camp Ashraf where the residents were located before resettlement to 
Camp Liberty I came to know and understand them very well. In 2007, 
after my return to the Pentagon, I commenced fulfilling my promise to 
the Commanding General of Detention Operations to work directly as his 
representative with U.S. State Department to help develop a long-term 
solution concerning these residents.
    After my retirement from active military service in 2010, I 
continued to be involved in seeking resolution. This involvement is not 
only because it is the right thing to do, but for another very 
important reason. While serving as Ashraf Base Commander I personally 
witnessed the residents doing everything possible to protect and 
support the Soldiers and Marines assigned to my base. They provided 
critical intelligence that helped reduce danger to American service-
members. Without their help I have no doubt many Americans would not 
have survived their tour of duty in Iraq. Even concerning logistics, 
when we were running short of water, the residents pumped to us fifty 
thousand gallons of water a day. There was never-ending cooperation 
between the residents and the Americans.
    Duty my time at Ashraf, I came to know the Mujahedin-e Khalq (MEK) 
better than any other outsider before, and very likely after. I heard 
the rumors, then pursued the facts. I challenged them in debate and 
listened to them in discussion. Having already been the Antiterrorism/
Force Protection Officer for all of Iraq, I had a solid understanding 
of the ever-changing threat. To understand what I was working to 
protect, and from whom, I had done an incredible amount of studying. 
When I was outside the perimeter in missions with the residents, I 
found them to be a solid ally. Inside the perimeter, I found them to be 
a major learning opportunity. We didn't always agree, but we always 
respected and trusted each other.
    I first learned about Camp Ashraf and the MEK during my earliest 
days as the Senior Antiterrorism/Force Protection Officer for all 
coalition forces in Iraq. This was in 2003. I assessed all my threat 
sources, the foreign fighters, in-country insurgents, former regime 
elements, religious insurgents, hostile tribes, and criminals. The 
residents of Camp Ashraf were not among any of these groups. On closer 
inspection I realized they were working closely with American forces. 
Recognizing the residents of Camp Ashraf were not a threat I 
concentrated my attention on real adversaries who were determined to 
undermine our mission and kill coalition soldiers.
    In October of 2003 the Commanding General of Detention Operations 
told me the residents could be among the best allies we have in 
country. With disappointment she informed me coalition leadership had 
yet to figure out how to deal with them, and most important to use them 
as a potential resource--especially in the area of intelligence.
    Their name came up again when an officer reported to Coalition 
Forces J 093 (Operations), Major General Tom Miller, that Ashraf 
residents were constructing combat trenches between their camp and the 
Americans. I checked that rumor out and discovered the trenches were 
for the installation of water pipes to handle the surge of new 
residents caused by the consolidation. I had no way of realizing this 
was just the beginning of all the unfounded rumors I would hear about 
the MEK. Two years later, the Ashraf dilemma would play a bigger role 
in my life when I became the Operations Officer for Task Force 134, 
Detention Operations. Seven months after that, it became my main focus 
when in June of 2006, I became the first colonel to serve as base 
commander of Camp Ashraf.
    One thing that always impressed me in 2006 about Camp Ashraf was 
how out of the desert an oasis was built. Outside of the perimeter 
fences was barren land. Supported by water pumped from two rivers and 
purified within the compound was a well irrigated community. The 
residents had also set up outlets along the pipeline to allow local 
farmers to draw water for their use. Electricity was provided to all 
camp facilities; a hospital and clinics served not only the residents 
but anyone who showed up at the gates requesting treatment. Each 
compound had its own bakery and dining facility. Each of these had a 
special food or item that championed over the other facilities. They 
produced their own ice and made their own soft drinks. The uniforms 
they wore were always well-serviced and clean at the beginning of the 
work day.
    I found Camp Ashraf's mosque a testimonial to the organization's 
founding principles of tolerance of other religions and races as well 
as the clergy not possessing total control over interpretation of the 
Quran or the congregations. Constructed with the two towers of a Shiite 
religious center, it was open to all. Sunni residents of the local area 
were welcome to come and worship. Americans and all other nationalities 
of any faith were welcome to come inside the mosque. Unknown to the 
outside world, one of the biggest celebrations of the year at Ashraf is 
Christmas. This may seem strange to outsiders, but any resident of 
Ashraf is always ready to point out that Christ is the second prophet.
    As base commander, I moved out to develop a professional 
relationship and gain a thorough understanding of this organization. 
What I found is the vast bulk of proclaimed knowledge among the 
Americans concerning the MEK was basically rumors. No one had attempted 
to study the history of the organization. It was almost like Greek 
mythology. The unknown was explained with stories passed on from one to 
another. By western standards, their way of life is considered strange, 
if not bizarre, but that doesn't make them bad people. They do live a 
Spartan life and have a closed society. Men and women live separate of 
each other. Makeup is not worn. At the time of my presence, all of the 
membership wore uniforms. Women have the key leadership roles of 
running the organization. They do have a strong allegiance to Massoud 
and Maryam Rajavi.
    Often their understanding of western attitudes and perceptions is 
as weak as our understanding of what they think and feel. It is easier 
for westerners who don't understand them to simplify the situation by 
proclaiming the MEK to be a cult. I have had many detailed 
conversations and debates with them. They have even asked me about the 
cult label and how they could improve the outside perception of 
themselves. Often the advice I gave was very hard and direct. To their 
credit, they accepted the advice and frequently exercised the guidance 
I provided.
    Unfortunately, while serving as base commander, both the MEK and I 
had to put up with occasional visits from a State Department 
representative who would come in with her own prejudice and refuse to 
even listen to what anyone else said--to include Americans. The most 
disastrous visit by this representative occurred during the same time I 
was back in Baghdad taking care of several other responsibilities. Upon 
my return, I found myself having to go visit every compound this 
representative had toured and mitigate every offensive remark she made 
and unwarranted action she conducted.
    Perhaps the most blatant and irresponsible rumor that came out of 
State Department occurred in the fall of 2006. An urgent warning came 
through that the MEK was recruiting Iraqis by the hundreds and training 
them at a specific compound. My unannounced inspection of this compound 
revealed a handful of local Iraqi workers. The MEK hired local labor 
because there was always too much work at Ashraf for the membership to 
perform. Should the workers come and go every day, their chances of 
getting caught by the Shiite death squads were that much greater. The 
workers preferred to come and go once a week and deliver the earnings 
to their families. Having seen enough to realize that once again I was 
chasing State Department swamp gas, I started to leave the compound. My 
MEK escort interrupted my departure and stated that there was another 
building to examine. I assured him between what I already witnessed, 
and his willingness to show more, I was convinced there was no reason 
to look further.
    Another rumor concerned the MEK keeping people against their will. 
They did have concertina wire fences between their compound and ours. 
To the outside, it appeared they were trying to keep people in. Upon 
much closer examination and experience, I came to realize that they 
didn't want anyone to defect from the organization without being 
debriefed and carrying in their possession sensitive documents or 
information. In one case, the MEK took me to a compound they had for 
people wishing to leave. One person was living the good life there and 
didn't want to leave. He was being cared for with meals and lodging, 
but didn't have to work for his keep. MEK leadership asked me to talk 
to him and convince him to come over to our defector camp. 
Unfortunately, I was unsuccessful. This person had the best of both 
worlds and didn't want to give it up. Using the logic of Husain, the 
Prophet's grandson, the night before the Battle of Karbala in 680 AD, 
MEK leadership told their membership, ``We will turn out the lights.'' 
Anyone wishing to leave had that choice. MEK leadership just wanted to 
know about the departure before it happened.
    One unexpected defection afforded me the opportunity to negate 
another rumor: that the MEK were sneaking out of Camp Ashraf without 
our knowledge to conduct business and undermine the Iraqi government. 
Having shown up unexpectedly in the middle of the night, this man 
caught both the Americans and MEK by surprise. The MEK accepted my 
doing the debriefing of this person who was now under our control. They 
accepted my word that he didn't bring any sensitive documents, only 
himself. This person's former role was to do the shopping and bank 
business trips to Baghdad while under American oversight. When I 
interviewed him, he made it clear he wanted nothing more to do with the 
MEK. He was just tired and wanted a new life. That simple. I then 
specifically asked him if the MEK were leaving camp without our 
knowledge. Even though he was dissatisfied with his former 
organization, he assured me they were not violating any of our rules 
and were complying with everything we mandated. That conversation, and 
many other events, further proved to me that the MEK was fulfilling the 
spirit and intent of every requirement placed on them by the Americans.
    The MEK was an intelligence source that we didn't learn to fully 
use for a long time, even though they were willing to share 
information. This is the organization that made the world aware that 
the Iranian government was conducting nuclear research operations. 
Their relationships in the local area were bringing in continual 
reports of al-Qaeda, Badr Corps, and Mahdi Army activities throughout 
the region. Not until the arrival of the Marine Corps Human 
Exploitation Team were we able to get that information into the 
intelligence network. I was always amazed at the amount of information 
they were able to extract out of Iran. One instance was the result of a 
conversation in Baghdad between that same State Department 
representative and a senior Iraqi official. When the conversation was 
over, the Iraqi official filed his report to Tehran. Within two weeks, 
all the details of the conversation were handed to me by the residents.
    As previously mentioned, upon my return to the Pentagon, I began 
working with State Department representatives in Washington, D.C. to 
properly address the Ashraf issue. What I found were the two primary 
people at Foggy Bottom responsible for the MEK had almost no working 
knowledge of the organization. The first two meetings I had with them, 
and several other people in attendance, concerned presenting a time-
line history of the organization from its earliest days and going over 
about sixty photographs I had taken concerning all aspects of Camp 
Ashraf and its residents. The State Department representatives had no 
idea what the membership looked like, the uniforms they wore, the 
layout of the compound, the existence of an industrial compound where 
trailer homes were being manufactured, the fact they ran their water 
through a treatment plant before consumption, had medical facilities, 
and ate their meals in dining facilities. They did know a lot of the 
rumors, but almost none of the facts.
    Finally we got to the issues concerning the MEK. The biggest one 
was the accepted-as-fact rumor that in years past the MEK had attacked 
the Kurds. I produced a letter from Hoshyer Zebari, head of Kurdistan 
Democratic Party International Relations, clearly stating this did not 
occur. This was checked out by having their counterparts in Baghdad 
talk to Mr. Zebari. I was later assured by my Foggy Bottom counterparts 
that Mr. Zebari confirmed my information to be true. Yet, several 
months later when the annual report on terrorism was released by the 
State Department, the accusation for attacking the Kurds was not 
removed. I questioned the same people I had been dealing with and was 
informed that they don't communicate with the people who put out the 
annual report.
    Another issue that has plagued the MEK is the Marxist label. While 
the MEK worked for more openness in Islam, the Marxist element 
discarded Islam in favor of Marxism. The best analysis to this 
situation was provided by former Undersecretary of State George Ball in 
his August 19, 1981 Washington Post article. Mr. Ball stated, `` . 1A. 
1A. The sloppy press habit of dismissing the Mujahedeen as leftists 
badly confuses the problem . 1A. 1A. Its intention is to replace the 
current backward Islamic regime with a modernized Shiite Islam drawing 
its egalitarian principalities from Koranic Sources rather than Marx . 
1A. 1A. ``
    The leadership of the Ashraf have expressed their willingness to 
leave Iraq and go elsewhere. The problem is they have almost no place 
to go. The U.S. State Department removed the MEK from the Foreign 
Terrorist Organization (FTO) list only because the D.C. Courts of 
Appeals mandated the legal process for challenging designations would 
be followed. I was in the court room and watched Justice Department 
attorney Robert Loeb repeat Ambassador Daniel Benjamin's earlier 
comment to Congressman Poe that Camp Ashraf had never been searched for 
weapons. Brigadier General David Phillips and I looked at each other 
and quietly remarked, 'What was it we did?'' Camp Ashraf had been 
searched by American forces several times. It had also been searched by 
Iraqi forces with dogs in 2009 and I have a copy of the letter from the 
Iraqi military stating no weapons were found. When Dave Phillips and I 
returned to looking at the front of the court room we realized one of 
the justices had watched us.
    The D.C. Court of Appeals passed a good ruling. If State Department 
did not fulfill within four months the administrative process 
requirements for a designated organization to challenge the FTO 
listing, then the Court of Appeals would remove the designation. 
Without the evidence to maintain the organization on the FTO list, less 
than 100 hours prior to the D.C. Court of Appeals mandate to follow the 
law, Secretary Clinton removed the organization for the terrorist 
listing.
    Also it was during this time period that an artificial requirement 
was place on the MEK. State Department mandated that for the residents 
to be delisted, they would need to vacate Camp Ashraf. Since the 
transfer of Camp Ashraf security from American to Iraqi forces in 
February 2009--with a statement of overwhelming confidence from 
Ambassador James Jeffries to Senator John McCain, that the Iraqi 
government would not harm the residents--three ground assaults on Camp 
Ashraf have been conducted: July 28 0929, 2009 (12 residents killed); 
April 8, 2011 (36 killed); and September 1, 2013 (52 killed).
    In 2012, movement of the residents from Camp Ashraf to Camp Liberty 
(directly east of Baghdad International Airport) commenced. Per 
agreement worked out between the Government of Iraqi (GOI), MEK, United 
Nations Assistance Mission Iraqi (led by Ambassador Martin Kobler), and 
United States State Department (led by Ambassador Daniel Fried), one 
hundred residents were approved to remain at Ashraf to serve as 
property custodians. The 2013 ground assault resulted in the murder of 
fifty-two property custodians and the kidnapping of seven others. The 
remaining property custodians were transferred to Camp Liberty within a 
week after the assault.
    From the September 1, 2013 ground assault the bodies of the 
murdered were barely cold before U.S. State Department representatives 
made a statement that is not supported by facts, specifically, ``There 
is no evidence the Iraqi Government was involved in the Ashraf 
massacre.'' The truth is as follows:

    <bullet> &Diyala Province Police Commander, General Jamil al-
Shemeri, arrived at the Iraqi compound overlooking the residents' area 
six hours prior to attack commencement.
    <bullet> &In a multi-prong approach, the assault forces crossed 
over the Iraqi-controlled berm and entered the residents' compound.
    <bullet> &Assault force members were wearing the exact uniform of 
Iraqi Special Forces. Additional accessories to the standard green 
uniforms and white hats were face masks and weapon silencers.
    <bullet> &At the time of the massacre this organization was 
assigned to Iraqi Prime Minister/Minister of Defense/Minister of 
Interior Nouri al-Maliki. The assault was very professionally 
accomplished, displaying extensive preparation and coordination.
    <bullet> &In plain view of Iraqi manned watch-towers surrounding 
Camp Ashraf, the assault force moved steadily, but not showing 
excessive speed. They knew they were not going to be interrupted. At no 
time, despite all the noise from the explosions and smoke rising out of 
the compound, was a protective response force dispatched from the Iraqi 
military base located immediately north of the residents' area.
    <bullet> &American-made military explosives were among the ordnance 
used in this attack. In addition to obvious United States military 
training, tactics and knowledge gained through ten years of War on 
Terrorism in Iraq were applied by the assault force.
    <bullet> &Of the murdered, six were killed in the medical facility 
while being treated for wounds just received. Also machine-gunned was 
the nurse administering treatment. Even after being wounded, or already 
dead, residents were again shot in the head, face, or neck. Numerous 
residents were shot in the backs of their heads while their hands were 
secured by handcuffs and/or plastic zipcuffs. Senior leaders, Zohre 
Ghaemy and Hossein Madani, were shot multiple times in the head. 
Attackers knew exactly which victims were principle targets.
    <bullet> &After two hours of killing, the assault force departed to 
the north and re-entered the Iraqi government compound. Left behind 
were 52 dead residents. The bus used to remove the seven hostages from 
Camp Ashraf was driven directly back to the Iraqi compound and remained 
parked outside an Iraqi building. As mentioned before, all of the 
deceased had been issued ``Protected Person Status'' cards by the 
United States Government.

    Not one single survivor was interviewed by anyone other than MEK 
representatives. Not interviewed that is until January 17, 2015 in 
Tirana, Albania when I sat down with Ashraf survivor Hassam Hamedi. Mr 
Hamedi revealed some additional truths that were never before revealed:

    <bullet> &In days leading up to the attack, some former Camp Ashraf 
residents were seen on the berms with Iraqi forces conducting 
reconnaissance of the camp.
    <bullet> &Ashraf residents had been warned there was a build-up of 
GOI forces inside the Iraqi compound and something bad was about to 
happen.
    <bullet> &Five Iraqi policemen (three in standard uniforms and two 
in trainee uniforms) watched from the roof of the water purification 
station as the entire massacre unfolded.

    Another fact pointed out in my interview with Mr Hamedi, and later 
confirmed to me as already being known by United States State 
Department, was that a former Ashraf resident who accepted transfer 
from Camp Liberty to the Iranian Ministry of Intelligence Hotel Mohjaer 
accompanied the assault force throughout the massacre. When the 
massacre was over, the defector commenced walking back toward the Iraqi 
compound with the assault force. At that time, a member of the assault 
force walked up from behind, put a gun to the defector's head, and 
fired. Acid was then poured onto the face of the deceased defector and 
his body was left where it fell.
    In 2013, three indirect fire operations were conducted against the 
residents at Camp Liberty: February 9th (8 residents killed), April 
29th (3 killed), and December 26th (3 killed immediately and 1 later 
dying as a result of the attack). Concerning the rocket attacks, each 
time Camp Liberty has been struck, United States State Department has 
worked to deflect attention away from the Iraqi government, 
specifically Nouri al-Maliki. In each case United States Baghdad 
Embassy and Foggy Bottom immediately embraced statements by militia 
organizations claiming responsibility. Three facts remain:

    <bullet> &There was no free movement around central Iraq in 2013. 
Al-Maliki had military checkpoints established every 300 yards 
throughout the Baghdad and Baghdad International Airport (BIAP) region.
    <bullet> &In 2013 militias did not drive around freely with 280 mm 
rockets mounted on their vehicles.
    <bullet> &The June 15, 2013 attack was claimed by Iraqi Hezbollah 
Commander al-Battat. Problem is that in claiming responsibility, al-
Battat severely understated the number of rockets fired at the camp. 
The real person responsible would have known the exact count.

    The combined casualties of these six attacks are 100 killed, 
hundreds wounded, and 7 kidnapped to never be heard from again. 
Furthermore, due to transportation harassment resulting in denial of 
access to medical treatment, 12 more residents have died at Camp 
Liberty. To associate these statistics to real people names of all the 
deceased are provided. This ``roll-call'' does not include the hundreds 
wounded and maimed during the aforementioned attacks. Every person 
killed in these attacks had been granted ``Protected Person Status'' by 
the United States Government in 2004.
    Since the residents relocated to Camp Liberty PsyOp initiatives by 
the Iraqi and Iranian governments have recurred. The most recent took 
place within the past month, causing residents scheduled for relocation 
to Albania to decline safe passage in the face of clear danger to their 
fellow residents remaining in harm's way. Although it is possible to 
criticize the residents' actions after much effort to arrange their 
safe exit from Iraq, it is understandable that those bearing tickets to 
safety would feel guilty abandoning their fellow exiles to a fate 
suggested by the same menacing harassment that preceded previous 
slaughters.
    Both the United States and the Iraqi Governments provided written 
assurances to the residents that their safety, security and humane 
treatment would be a priority as long as they remained in Iraq. It is 
also indisputable that on multiple occasions Ambassador Martin Kobler, 
Special Representative of Secretary General (SRSG) of the U.N., and 
Ambassador Fried of the Department of State provided similar assurances 
to our bipartisan political, diplomatic and military group, pledges 
that proved to be the catalyst to persuade the residents to leave their 
longtime home at Camp Ashraf and accept the accommodation being 
promised by the U.N. and U.S. at Camp Liberty.
    Nor were these the only U.N. and U.S. assurances on which the 
residents relied. Both U.N. Ambassador Kobler and U.S. Ambassador Fried 
assured the residents that sale of Camp Ashraf property would be 
allowed, which is why 100 residents were authorized to remain behind at 
Camp Liberty, protecting the valuable industrial and technological 
assets along with many vehicles and personal property not allowed to go 
with the residents to Camp Liberty. The bodies of the 2013 massacre 
victims were hardly cold before plundered Camp Ashraf vehicles were 
seen being driven through Baghdad. There is little doubt the buildings 
have been thoroughly looted. Yet, not a single dinar has been paid to 
the residents. The residents are already being charged inflated prices 
for life support goods and services. They are also having to pay the 
resettlement costs in Albania and other countries. The lack of 
effective commitment and action by the United States Government and the 
United Nations has allowed the Iraqi government to impose an onerous 
financial burden on the Iranian Resistance, a goal no doubt supported 
if not inspired by the fundamentalist regime in Tehran as a 
continuation of its long and bloody campaign against the unarmed 
political resistance in exile.
    Further assurances were made that no MOIS presence would occur at 
Camp Liberty. Ambassador Kobler wrote to the Residents stating ``in 
respect to your concern on the presence of any foreign presence inside 
Camp Liberty, the Gol has assured us that there will be no foreign 
presence inside Camp Liberty'' (February 15, 2012). In response to 
similar concerns raised by the residents about the agents appearing in 
Camp Ashraf, or UNAMI facilitating their presence around Camp Liberty, 
Gyorgy Busztin, Deputy SRSG, wrote to the residents' representative 
that the Government of Iraq ``categorically denied that there would be 
Iranian agents lurking around Camp Ashraf and stated very forcefully 
that even raising such an assumption is an insult to their national 
sovereignty.'' He added, ``Further, I can assure you with absolute 
certainty that UNAMI is not ferrying anybody to Camp Liberty under any 
guise.'' We repeat these words because they are utterly irreconcilable 
with the actual situation in and around Camp Liberty.
    As we meet today, the residents are subjected to never ending 
harassment by the Iraqi Intelligence Corps officers conducting camp 
oversight. They are blocked from properly removing sewage from the 
camp, they are denied receipt of all the preapproved life support 
property, medical patients are harassed and denied timely departure 
from the camp resulting in missed appointments, periodically they 
endure total blockades to include food, repair parts for their already 
worn out vehicles are required to age just outside the gate, they are 
prevented from receiving building materials to better their existence, 
and the list goes on.
    Meanwhile, the United Nations Support Mission, depended on approval 
of the Iraqi Government to remain in country, constantly accepts Iraqi 
Intelligence Corps officers' lies and slander. This is in turn passed 
on to United States Baghdad Embassy and forwarded to Foggy Bottom. The 
more ridiculous the more believed. Case in point: Iraqi officers 
claimed the residents were tunneling out of the camp to go join the 
Islamic State. The reality is moderate Shiites are not going to be 
welcomed by radical Sunnis. Furthermore, the water table under Liberty 
is six feet down. As I pointed out when this rumor surfaced, unless the 
residents were getting assistance from Moses then they were not going 
to be tunneling through water. One slanderous rumor is put to rest, 
another surfaces.
    One of the biggest problems endured by the residents of Camp 
Liberty is their being on the end of ``reverse-engineered 
intelligence.'' The rumors and misinformation about the residents of 
Camp Liberty never end. In part this is caused by the United States 
Embassy staff never leaving the safety of Baghdad's Green Zone to find 
out what is really happening at Liberty. Sources of misinformation 
start with the Iraqi military intelligence officers and, in turn, that 
information being embraced by UNAMI.
    We promised them in writing protected person status. We even issued 
them identification cards which they carried with pride. Without 
warning, in 2009 that status was revoked. We promised them expedited 
resettlement if they would leave Camp Ashraf and move to Camp Liberty. 
They have been at Camp Liberty over three years. Ambassador Dan Fried 
personally promised regular and frequent U.S. Embassy visits to Camp 
Liberty. Except for visits following slaughters, visits have averaged 
about one every six months. Concerning the United States Embassy in 
Baghdad, one resident told it to me this way, 'When they need something 
from us, we see them. When we need something from them, we get 
nothing.'' This is a never ending story. For the residents it does not 
stop. It just drags on with the residents constantly being criticized 
and slandered.
    As Iraq and the surrounding region face deeper crisis, there 
remains the possibility that the Camp Liberty residents can avoid 
becoming further casualties of Iranian-directed aggression, but time is 
surely not on their side. Secretary Kerry has stated that the United 
States will accept refugees from Syria. The Liberty residents have 
proven their bona fides, cooperating steadfastly with our own Soldiers 
and Marines at Camp Ashraf. This is attested by the American commanders 
who stand up for them. Secretary Kerry has the authority to accept into 
the United States the residents of Camp Liberty without the residents 
having to renounce their lifetimes of conscientious objection to 
religious tyranny in Iran. The claim that they were once members of a 
terrorist organization is now widely understood and documented to have 
been the result of diplomatically inspired designations in the US and 
allied countries, all of which have been fully investigated and undone 
by judicial and scholarly review.
    Reason and compassion do not prevail in anything pertaining to Camp 
Liberty. Political agendas, political careers, and personal bias are 
united in preventing a proper solution, especially on the part of U.S. 
State Department employees. Meanwhile, U.S. House of Representatives 
Resolution 3707, ``To ensure the emergency protection of Iranian 
dissidents living in Camp Liberty/Hurriya and to provide for their 
admission as refugees to the United States'' was introduced December 
11, 2013. Today, fifteen months later, it still remains untouched in 
committee.
    Concerning the future of the residents, former Special 
representative of the U.N. Secretary-General for Iraq, Ad Melkelt, 
stated it best: ``Hardly has a humanitarian issue been politicized as 
this one. Yet already for many years the victims are not the players. 
It is essential for the international community to understand this and 
thus consider it a duty to intervene in defense of international law 
and human rights, regardless of political interest or bias. This, 
therefore, should be the moment for governments and lawmakers to step 
up and let reason and compassion prevail.''

    Senator McCain. Thank you.
    I thank the witnesses.
    There is language in the defense authorization bill, which 
we'll be voting on this afternoon, that calls for the kind of 
actions that the witnesses have today.
    Colonel Martin, did you personally provide this card to the 
residents at the camp?
    Colonel Martin. Sir, that was provided by General Dave 
Phillips in 2004. I had finished up my tour of duty----
    Senator McCain. Did that----
    Colonel Martin.--as the Antiterrorism----
    Senator McCain. Did that card specifically guarantee those 
individuals safety?
    Colonel Martin. Yes, sir.
    Senator McCain. In other words, the word of the United 
States of America that they would be protected.
    Colonel Martin. Yes, sir.
    Senator McCain. General Jones, in the last few days, we 
have seen--actually, a couple of weeks--a announcement by the 
Iraqi government that they will be having an intel-sharing 
arrangement with Russia, Syria, Iraq, and Iran. Then we hear, 
just today or yesterday, that Prime Minister Abadi is saying he 
would welcome Russian air strikes into Iraq against Islamic 
State in Iraq and Syria (ISIS). Does this indicate to you the 
increasing influence of Iran in the affairs of Iraq? Where does 
it leave--oh, and--a Shiite leader yesterday was quoted as 
saying that the United States airstrikes were ineffective, so, 
therefore, they needed the Iranian assistance and the Russian 
assistance. What is your assessment of the Iranian influence 
now in Iraq and how it may more endanger the lives and welfare 
of the residents of the camp?
    General Jones. Sir, I--as I mentioned in my prepared 
remarks, I was present when the former King of Saudi Arabia 
issued his warning about then-Prime Minister Maliki, which was 
proven to be correct. It was my hope that the new Prime 
Minister and the leader of Iraq would have shown more 
appreciation for the sacrifice that was made on behalf of his 
country by the United States. I think that such statements are 
not only insulting to our commitment, but also just show--show 
just how deeply the Iranian influence has permeated the--
Baghdad--the capital of Iraq and its leadership, unfortunately.
    Senator McCain. Would--suppose that the Russians begin air 
attacks in Iraq. What--one, what does that mean? Two, what 
should the United States reaction be?
    General Jones. Well, the United--in my view, it means, 
unless the Russians agree to join the international coalition 
and cooperate under the Air Tasking Orders and bring a certain 
military competence and coordination to the fore, you run the 
risk of having chaos in the skies. The United States--with all 
due respect, the United States should do everything in its 
power, I think, to avert that situation and make sure that 
what's happening in Syria does not happen in the skies of--over 
Iraq, regardless of whether the Prime Minister welcomes the 
addition of the Russians.
    Senator McCain. But, he does have a point about the 
effectiveness of the air campaign against ISIS.
    General Jones. Yes. It does, in the sense that the United 
States has made its decision as to what it's going to do. My 
understanding is that we are relooking at our commitment, and 
we'll hopefully ramp it up a little bit more. As you know, my 
personal belief is that the longest road to victory here is 
purely an air campaign. But, if that's all we have, then we 
ought to make it a massive air campaign.
    Senator McCain. Didn't we learn in a camp--in a conflict 
that you and I were long ago engaged, that incrementalism 
doesn't work and air campaigns alone don't work?
    General Jones. That's correct.
    Senator McCain. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your testimony.
    Senator Lieberman or General Jones or Colonel Martin, is 
there a plan existent today to transfer these individuals from 
Camp Liberty to safe havens around the globe? Is there no plan?
    Senator Lieberman. Yeah. So, I'll start and then yield to 
my colleagues.
    My impression is that there's not really a plan. It's had a 
stop-and-start quality to it, depending on a lot else going on. 
Also, my understanding is--and Colonel Martin and maybe General 
Jones can speak to this--that the MEK has actually been 
financing the resettlement of people from Camp Liberty, and 
they've reached the limit of what they can do. That's why one 
of the requests now is that we use our influence on the Iraqi 
government to allow the people in Liberty who have title to 
property in Ashraf to sell it. They lived in a beautiful town 
in Diyala Province when they got--as part of this deal we 
talked about, got moved out. So, no, I don't see a real plan, 
and certainly not one that's financed.
    The other thing that Colonel Martin, I believe, testified 
to, there's a lot of loyalty to one another at Camp Liberty, 
and there's a fear of some of the people leaving, and leaving a 
lot of others behind and, they think, making them more 
vulnerable. So, the ideal would be a mass departure from the 
camp.
    Colonel Martin, do you want to add to that?
    Senator Reed. Can I just interject one point----
    Senator Lieberman. Yeah, I'm sorry.
    Senator Reed.--so that both you and Colonel Martin and the 
General can comment, is that--and again, this might--my 
understanding--correct it if it's inaccurate--is that there was 
a significant movement of members of the MEK to Albania----
    Senator Lieberman. Right.
    Senator Reed.--initially.
    Senator Lieberman. The largest group.
    Senator Reed. Largest group. Then, from there, there was 
a--they moved to other places that were accommodating. Does it 
make sense to--if we're eventually getting down, I hope, to the 
stage of planning to focus not only an ultimate destination, 
but a place where a large number could leave, so, therefore, 
they wouldn't have to leave behind friends and family, et 
cetera, and then from there begin to share the disposition of 
the personnel?
    But, with that interjection, Colonel Martin.
    Colonel Martin. Sir, thank you.
    As of right now, 800 residents have been resettled out of 
the camp. Considering it's taken 3 years and we were assured by 
Ambassador--U.N. Ambassador Martin Kobler and U.S. Ambassador 
Dan Fried that it would be a temporary transit location, and 
they would quickly be expedited. General Jones and I were on 
the telephone calls with Dan Fried when he said, ``As fast as 
the residents come in, it'll be like a conveyor belt, they'll 
be going out.'' That didn't happen, sir.
    To answer the question, right now, in addition to the 800 
resettled, 480 more are scheduled to go ahead and depart Camp 
Liberty and go to Albania. Asking them to renounce their 
conscience and--Senator McCain, you know better than anybody 
else in this room what it's like to be in a military prison and 
you're bonded to the people beside you. To tell them, ``Well, 
you have to leave. You don't know what's going to happen to the 
other people,'' that caused them a pause. Fortunately, working 
with Jonathan Winer at the State Department, Maryam Radjavi, 
Senator Torricelli, and others, we were able to get past that, 
and the resettlement process has begun again. But, they have 
been resettling in small amounts.
    The United States--my position is, and I've polled--and 
behind me are a bunch of people that would accept two or three 
residents all across the United States. We could take all 2,400 
residents left right now, and bring them to safe haven. It can 
be done, sir.
    Senator Reed. But, it requires, one, a plan, and, two, some 
resources to get that plan going. I think, again, just from my 
perspective, the--if there was a transition point--not an end 
point, but a transition point--that might be helpful to all 
concerned, because it'll allow a lot of security checks as well 
as immediately moving people out in a much safer environment so 
that they could be placed.
    Colonel Martin. Sir, the security checks have already been 
done by the Federal Bureau of Investigation (FBI), twice. The 
FBI came in, in 2004, and did a thorough investigation, 
convinced they were going to find residents at that camp 
involved in terrorism. The FBI cleared all of them and said, 
``No, they're not.'' Even one of the strongest defenders of our 
group is former FBI Director Louis Freeh, and he has gone 
through and said they're not terrorists, as well. The security 
checks have been done.
    Senator Reed. Very good.
    Colonel Martin. The real issue--and Secretary Kerry has the 
authority right now to say, ``I waive this, bring them in.''
    Senator Reed. Thank you, gentlemen.
    Senator Lieberman. Senator Reed, let me--I'd just add that 
I think this requirement that these people, who have been very 
loyal to the United States, renounce membership in a group that 
is off the terrorist list--and there really is some question 
about whether it ever should have been on there--is unfair to 
them, and it's an unnecessary obstacle to a group of people who 
are very loyal to America, who I think would--and have family 
and friends, including people here in the room today, who would 
take them in and, I think, would make a great contribution to 
our country. So, I'm not sure what can be done, but I wish, 
together, we could find a way to get the U.S. Government to 
stop, essentially, requiring the rejection of a previous status 
that no longer is accepted by American law.
    Senator Reed. Thank you.
    Senator McCain. Senator Tillis.
    General Jones. If I could just add to that, we wouldn't be 
sitting here today if we just had an airlift a couple of years 
ago. The--there's just some other points that just, I think, 
are outrageous. The officers--the Iraqi officers that led the 
attack on Camp Ashraf and killed--responsible for killing men, 
women, and children--are the ones that deal with Camp Liberty 
today. When you talk about an insult--adding insult to injury, 
it's incredible. I just find it unbelievable that this problem 
has not been resolved 3 or 4 years ago. Although the numbers 
are going down, and the Albanian government deserves a lot of 
credit--and, by the way, the cost for relocation is being borne 
by the MEK. It's not being borne by us, it's not being borne by 
the U.N. The money has been allocated--I forget the number, but 
it's--$20 million, so far, out of their funds to relocate their 
wives or their brothers, their sisters, their family members, 
and their colleagues.
    I think that--I just think the United States should show 
more responsibility for the commitment we made, and should 
exert more leadership in bringing this to a close.
    Senator Reed. Thank you.
    Senator McCain. That's very eloquent.
    Senator McCain. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    Gentlemen, thank you all for being here.
    Colonel Martin, I'd like to start with you. Could you give 
me some sense--and I know that maybe your time there is 
somewhat dated, but give me some sense of what the--a day would 
be like for the some-2,400 people that are still in Iraq.
    Colonel Martin. I can do that, sir, because I am in 
continual contact with the residents; and, when I talk to them 
on the phone, when I get their emails, I--their faces 
automatically pop up in my memory.
    When I was the senior operations officer for detention 
operations, I lived at Camp Liberty. As I've mentioned, that 
camp was not designed for housing people 24 hours a day. Their 
daily life is one that they make it, make it useful. They keep 
themselves physically fit. They're always building upon the 
camp to make it better.
    Unfortunately, they're living in a life of tyranny. I 
remember, back in the '70s, there used to be this little 
cartoon of a pair of goldfish in a blender, and they're in the 
water, and there's a little button for the blender, waiting for 
it to be turned on. One goldfish says to the other, ``I can't 
handle the stress.'' That's what it reminds me of for the 
residents. They make the best of the situation, but they're 
living under a dark cloud of tyranny. They're being denied 
critical resources, over and over.
    Senator Tillis. Well, I want to be clear, then. So, they're 
living in horrible conditions every day, worrying about whether 
or not they're going to be alive the following day. These are 
people who peacefully disarmed----
    Colonel Martin. Yes, sir.
    Senator Tillis.--and protected American soldiers when we 
came into Iraq. We made a promise that we would take care of 
them.
    Colonel Martin. That is correct, sir.
    Senator Tillis. Senator Lieberman, about--sometime in 
September, Secretary Kerry said that we were going to allow the 
relocation of, I believe, 75,000 refugees from various 
countries. A couple of weeks later, he said it would be 85,000, 
and that that was a floor, and that at least 10,000 of those 
would be Syrian refugees fleeing the Assad regime and the 
violence in Syria. What would lead Secretary Kerry to such--to 
the conclusion that these people--and incidentally, those 
85,000 that we're talking about bringing in this country 
haven't been vetted. We don't know who they are. We've got to 
protect the safety and security of America, and we should 
absolutely welcome refugees that are fleeing hostile regimes.
    Colonel Martin, you said that the FBI's vetted this 
population twice.
    Colonel Martin. That is correct, sir.
    Senator Tillis. Senator Lieberman, can you give me any idea 
of why our Secretary of State would take a position that he's 
taken today, with the imminent threat that these men and women 
and children face every single day? Why are they different, and 
why can't they be included in this some- 6,000 more unallocated 
refugees that the capacity that the administration says that 
they want to make available to get people to a safer place--why 
on earth are we even having to have this discussion?
    Senator Lieberman. Well, I totally agree with you. 
There's--to me, there's not, Senator, an acceptable answer to 
that question. I mean, they're--these are people seeking 
political asylum. They have proven their loyalty to the United 
States of America, beyond what we could imagine. They have been 
vetted. The problem here--and this is why the fact that this 
committee is holding this hearing and that so many of you have 
been advocates for the residents of Camp Liberty is so 
important, because they could easily--these people are pawns of 
a larger power struggle in which Iran, which despises them and 
wants to get rid of them, whenever it has the opportunity to 
exercise influence, including in international diplomacy and, 
of course, with Iraq--Iran's the big country next door. It's 
now--it has political influence in Iraq. It's providing arms, 
et cetera, et cetera. So, you can imagine, without having a 
conspiracy theory, that they are behind what--a lot of what's 
happened in--what's happening to the residents. But, that 
shouldn't affect us. We're the United States of America. 
Remember the words on the Statue of Liberty about the masses 
yearning to be free. Boy, if that was ever true, it is this 
group.
    Senator, your comparison of what Secretary Kerry said of 
these 2,400 or 2,500 is very powerful. They ought to be put at 
the top of that list.
    Senator Tillis. They're fully vetted.
    Senator Lieberman. Yeah.
    Senator Tillis. They're people who have been friends of the 
United States.
    Senator Lieberman. Right.
    Senator Tillis. They're in an area where they, every single 
day, face an existential threat. This administration doesn't 
recognize that that----
    Their policy right now is despicable, and I appreciate 
Senator McCain holding this hearing. I think we need to put the 
pressure on. This is wrong. It's not what America stands for.
    Senator Lieberman. Thank you.
    Senator Tillis. Thank you.
    Senator McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    First of all--I'm trying to get my head around all of this 
and what's going on, and I think I got a little bit of a flow 
of it. What has happened to the leader of MEK? I know Maryam 
Radjavi is the----
    Senator Lieberman. Right.
    Senator Manchin.--leader now. What happened to her husband, 
Massoud? We haven't heard from him since 2003. Does anybody 
know what happened to him?
    Colonel Martin. Sir, he was wounded in an attack. And----
    Senator Manchin. Is he alive? Is he still alive?
    Colonel Martin. The information I have, yes, sir.
    Senator Manchin. Is he in the camp? Camp Liberty?
    Colonel Martin. No, sir, he is not.
    Senator Manchin. In the United States?
    Colonel Martin. No, sir.
    Senator Manchin. He's somewhere.
    Colonel Martin. He's in--the information I've been 
provided, he's in France.
    Senator Manchin. He's not consider the leader anymore?
    Colonel Martin. He is still the co-leader with Maryam 
Radjavi.
    Senator Manchin. But, she's the front person.
    Colonel Martin. She is the person that is with all the 
activities, all the events, yes, sir. She is the leader.
    Senator Manchin. Let me ask another--and, General Jones, 
this might be to you--in your testimony, you cite that the 
three most lethal events occurred between 2009 and 2013 during 
Prime Minister Maliki's time in office. Since Prime Minister 
Abadi took office in 2014, have there been any changes to the 
situation at Camp Liberty when it comes to the security or 
resettlement? Have you seen any changes?
    General Jones. I'd defer to Wes for the details, but, you 
know, I think the attacks have been less--lessened. But, the 
fact that they--the Iraqis' military who are regularly in the 
camp are still the ones who conducted the raids in previous 
years, and the killings, is indicative of the--kind of the 
pressure that they want to keep on the citizens in the camp.
    So, Wes, you might have some more details on the--on that.
    Senator Manchin. Has it improved, is probably what I'm 
asking----
    Colonel Martin. It hasn't improved, and it hasn't----
    Senator Manchin. Has not.
    Colonel Martin. It has not improved, sir, and it has not 
deteriorated. It is--they're still in that blender, waiting for 
that button to be pushed.
    Abadi, he is the Prime Minister, but he is in a very 
precarious position, because Maliki still controls Dawa Party. 
Maliki still has the ear of Tehran. As you recall, Maliki was 
forced out only after ISIS took over major parts of the 
country. Both the Ayatollah in Tehran and President Obama was 
blessing him for a third term, which was against the 
constitution--the Iraqi constitution. But, he was forced out 
when General Soleimani went to him and said, ``You have to step 
down.'' Then a member of his Dawa Party was brought up.
    Abadi has made a lot of great promises. There are 
demonstrations going on throughout Iraq. He's drawn the support 
of them. He's drawn the support of Ayatollah Sistani. 
Surprisingly, he's drawn the support of the head of the Mahdi 
Army, Muqtada al-Sadr.
    Senator Manchin. I have another one. This is my--this is a 
most difficult question. This is--when the State Department 
delisted the MEK as a foreign terrorism organization in 2012, 
it stated, ``The Department does not overlook or forget the 
MEK's past acts of terrorism, including its involvement in the 
killing of United States citizens in Iran in the '70s and an 
attack on United States soil in 1992. The Department also has 
serious concerns about the MEK as an organization, particularly 
with regard to allegation sf abuse committed against its own 
members.''
    How has the MEK addressed the concerns raised about 
potential abuse of its own members since the delisting, sir?
    Colonel Martin. Since the delisting, it hasn't needed to be 
addressed. In this same document that Governor Ridge provided 
Senator McCain--I'll get you a copy of it--I addressed that 
thoroughly.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    

    Colonel Martin. I investigated those--when I was the base 
commander as a military policeman, I went and investigated the 
allegations of abuse and along with a lot of other allegations. 
They were unfounded. What I found while I was there, and since 
then, the MEK is the most lied- to, lied-about----
    Senator Manchin. Has the State Department corrected its 
findings?
    Colonel Martin. No, sir. It--this report was generated when 
Julia Frifield sent to Congressman Royce a repetition of the 
previous lies and all the misinformation. They had been given 
the requirement----
    Senator Manchin. But, they haven't changed anything, 
because 2012 was when they delisted them, right?
    Colonel Martin. They delisted in 2012, and, even when that 
delisting was being done--that was Ambassador Dan Benjamin that 
was pushing forth that misinformation, ``Well, we haven't 
forgot what they've done.'' I sat down with the State 
Department when I came back, under the promise to Major General 
Jack Gardner that I would continue to be his representative 
with the State Department while I was at the Pentagon--I 
thoroughly investigated. Behind me is Linc Bloomfield, who has 
thoroughly investigated all the allegations. The allegations--
there were two mujahideens for a period of time, and then 
finally, when Massoud Radjavi was released from prison and he 
was able to take back control of the MEK, what became known as 
``the struggle'' disappeared, and they disbanded, basically. 
But, the current organization is taking the blame for all the 
other atrocities that had happened.
    The MEK has never attacked Americans. They did not kill 
Turner, Schaefer, and Hawkins, the Air Force officers back in 
the '70s. They did not do these things. They--and probably the 
most embarrassing report that ever came out was the RAND study, 
because the RAND study was focused just on--and the State 
Department paid for it--they got friends of their position. I 
was at the Pentagon. I was never consulted. Others were never 
consulted. Only the people who was going to tell that State 
Department story. It's kind of like the old John Wayne western, 
``When the legend becomes a fact, print the legend.''
    Senator Manchin. Mr. Chairman, I'm so sorry.
    Senator McCain. Go ahead.
    Senator Manchin. I was--I really wanted to--I really wanted 
to ask the question about, Are you three recommending to this 
committee that we help to relocate or bring them to America, or 
help relocate them with their loved ones throughout Europe?
    Colonel Martin. I'll let the other two gentlemen speak, but 
I definitely am.
    Senator Lieberman. Well, I'll start at the beginning. 
First, thank you for the fact that the defense authorization 
bill has some components to it that really move in a direction 
that we would want. So, you've already done some of that.
    The second is, on an ongoing basis, to pressure, either 
when you visit--members visit Iraq or through the State 
Department, through our embassy, pressure the Abadi government 
to know how important this is to us, because they're going to 
get--how important the security and ultimate exit of the 2,400 
at Camp Liberty is to the United States of America. Because, 
trust me, they're going to get daily pressure in the other 
direction, from Iran. Up until this time, we've said we should 
find a place like Albania to go, but--I mean, I--as an 
American, I'd be proud and very secure in having these 2,400 
come here, and I think they'd be great Americans.
    General Jones. I completely agree with Senator Lieberman. I 
think it would show leadership, it would show some 
responsibility in this. I think the most important thing is to 
get everyone out of Camp Liberty as soon as possible.
    Senator Manchin. I'm sorry, Mr. Chairman.
    Senator McCain. No problem. It was a good line of 
questioning.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    First, let me begin by just saying, I appreciate the 
Chairman's work in bringing this testimony and information to 
the committee. I agree, it's very important, and I appreciated 
the Senator from West Virginia's line of questioning and 
comments.
    I would just ask this, just to begin with. Is the focus 
today with regard to how we resolve the issue surrounding Camp 
Liberty, is this an activity which requires more action on the 
part of our government, or is this a case of where it is more 
work being required of the Iraqi government, a combination of 
the two? Where is the biggest challenge we have in resolving 
this issue?
    General Jones. Senator, I think that when we--when the 
State Department removed the MEK from the Tier 3 category, and 
the Department of Homeland Security--I'm sorry--Tier 4, right? 
Tier 3? Yeah, but they were Tier 1, right?
    Colonel Martin. Yes, sir.
    General Jones. Yeah. But, then the Tier 3 designation was 
instated by the Department of Homeland Security, which is kind 
of an arbitrary designation, but it triggered another obstacle 
that delayed the departure of the residents.
    So, I think the easiest way is to make a decision to remove 
that Tier 3 artificial designation, which, from my standpoint, 
is valueless, and to step forward and lead this effort to get 
these remaining people out of Iraq, whether they go to 
Albania--I would prefer that they come here, simply because I 
think it sends a positive message. When you look at Mrs. 
Radjavi's 10-point plan for the future of Iran, it tracks very 
nicely with our own Constitution.
    So, this MEK group is a democratic group, and we need to 
respect that, I think. We need to do the right thing.
    Senator Lieberman. I'd just say briefly that the very fact 
of this hearing is important today, because the greatest enemy 
of the people in Camp Liberty is invisibility, because then 
they get to be a pawn for the Iranians. The fact that the 
hearing is being held, and very strong supportive statements by 
the Chairman, Ranking Member Senator Reed, members of the 
committee, they'll get--they'll hear about this, both in Camp 
Liberty, so it'll give them hope, but also they'll hear about 
it in the government offices in Baghdad and, I hope, in Tehran.
    I mean, the danger here is that, as part of what some 
people think is a new era in United States-Iranian relations, 
that the Iranians will try to leverage our State Department to 
turn away from what's happening in Camp Liberty. That's where 
the kind of bipartisan leadership that is reflected in this 
committee is so important. But, the ultimate--the immediate 
goal: protect the security of the people in Camp Liberty, and 
get them out of there to somewhere else as quickly as possible.
    I'll just come back to what I said in my opening statement 
real briefly. This is a--to me, a message to us that we ought 
to be supporting political opponents, including the MEK, but 
others as well, to the Iranian regime, because that's probably 
the best way we can guarantee long-term better relations with 
that great country.
    Colonel Martin. Sir, I'd defer to a note that was just 
passed to me by a man who I served with in combat and a close 
advisor to the Multinational Force Iraq Commander as well as to 
Paul Bremer.
    Abadi, as I mentioned before, is very weak. This is a 
golden opportunity for the United States to pressure him into 
allow the residents to leave and for us to bring all the 
residents here. As I mentioned, there are enough families 
throughout the United States, we can absorb all them. When you 
think about all the torment and all the horror that they have 
had to go through, for the past 3 094 years, especially--well, 
since 2009--and yet, they still remain loyal to the United 
States, hoping that we will be able to do something to lift 
them out of that tyranny, it's time to bring them out. It's 
only a matter of time before the fight between Maliki and al-
Abadi is going to come to a head. I fear Maliki has the 
strongest support of the militias, Abadi will be out.
    Senator Rounds. Thank you, Mr. Chairman.
    Senator McCain. Senator King.
    Senator King. Thank you, Mr. Chairman.
    I'm new to this subject, so I want to ask some sort of 
basic questions.
    Several times, you gentlemen used the term that ``U.S. made 
assurances,'' the term ``solemn promise,'' ``guarantees.'' 
Colonel Martin, you mentioned a card. What did that card say? 
What--I'd like to know specifically what assurances were 
delivered by whom and when.
    Colonel Martin. Yes, sir, this was the Protected Persons 
Status under the Geneva Convention. I have a copy of it. If you 
give me a second, I can find it real quick and----
    Senator King. Well, I'd like to know what it says.
    Colonel Martin. Okay.
    Senator King. I mean, what I'm searching for here is: What 
were the assurances and the--specifically--and who delivered 
them, and when? I think that's a fair question, given that's--
seems to be the premise of this discussion.
    Colonel Martin. ``This cardholder is Protected Person under 
the agreement of the terms of the fourth Geneva Convention. 
Should the assigned person''--it's a little blurry--should an 
incident occur, it requests that the person contact the 
Military Police Brigade. Then it goes on, the agreement that 
they made, ``You are being offered your release from control 
and protection in exchange for your promise to comply with 
certain regulations.'' It clearly states they are protected, 
they will not be--they will not be arrested, they will not be 
harmed.
    Senator Lieberman. What did they have to do?
    Senator King. But----
    Colonel Martin. What they had to do, sir, is go ahead and 
sign an agreement.
    Senator King. That's when they were moved from Ashraf to 
Camp Liberty?
    Colonel Martin. No, sir, that was a whole different set of 
promises. If I may, sir.
    Senator McCain, if it's all right, I'd like to have this 
submitted, too.
    Senator King. Well, you can make this for the record.
    [The information referred to follows:]
      
  
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
      
    Senator King. But, I want to know who made assurances----
    Colonel Martin. Yes, sir.
    Senator King.--and what those assurances were. Saying 
``You're a Protected Person under the''----
    Colonel Martin. Yes, sir.
    Senator King.--``Geneva Convention'' isn't a promise that 
the U.S. will take you in. I mean, I just--I want to understand 
what the promise is that we're being urged to honor.
    Colonel Martin. Yes, sir. I understand.
    The first one is, they would be protected and they would 
remain at Camp Ashraf. That was 2004. That was with the U.S. 
State Department, in agreement with the United States 
Department of Defense. Rumsfeld was the actual person that 
finally approved it, but working with the State Department.
    The person who issued those cards, under order of the U.S. 
Embassy, was Brigadier General Dave Phillips, who was also part 
of this group that works closely, that they would be 
protected----
    Senator King. But, it's your position that this Geneva 
Convention assurance of being a protected person constitutes a 
solemn promise of the United States to look after these people 
indefinitely?
    Senator Lieberman. Part of this was--you correct me, Wes--
that the residents gave up their arms. They were disarmed. That 
was part of a post-Saddam policy of our military in Iraq. 
General Odierno was actually involved, in some ways, not at the 
higher level he ultimately reached, but he was on the ground in 
these negotiations.
    I'll tell you, Senator King, to me one of the most--I've 
had it happen two or three times--most compelling moments in my 
own understanding--or getting more understanding of what 
happened here was to hear leaders of the U.S. military, 
including General Phillips, but then people on up who were 
Chairman of the Joint Chiefs of Staff at the time, standing up 
and saying, at a public meeting, ``We made a promise to these 
people, and we broke it.'' I mean, it was----
    Senator King. Well, all I'm looking for is, What's--what 
was the promise, when was it made, and who made it? Perhaps you 
could submit that for the record. That's what I'm interested 
in.
    Colonel Martin. We can do that, sir.
    [The information referred to follows:]

       United States Protection and Commitment to the residents:
    Senator King asked about the commitment of the United States to the 
residents of former Camp Ashraf and now Camp Liberty, requesting that a 
written statement be provided to demonstrate how and by whom the 
residents were declared 'protected persons' and who in the United 
States Government recognized them as such and made the commitment to 
protect them.
    As to this request, I would like to inform the Committee that the 
United States military, on behalf of the U.S. Government, signed an 
agreement with each and every single resident of Camp Ashraf that in 
return for ``rejecting violence'' and ``rejecting participation in or 
support for terrorism'' and delivering ``all military equipment and 
weapons'' under their ``control and responsibility,'' they will 
``remain under the protection of the United States forces until their 
final disposition. These final disposition options included, among 
others, voluntary return to Iran or seeking refuge outside Iraq through 
relevant international organizations. The protected person status under 
the 4'' 1A' GenevaConvention was granted following the signing of this 
agreement.
    In a letter dated July 21, 2004, Maj. General Geoffrey D. Miller, 
then-Deputy Commanding General Multi National Force-Iraq, congratulated 
``each individual living in Camp Ashraf on their recognition as 
protected persons under the Fourth Geneva Convention.'' (Letter is 
enclosed)
    I am providing the following factual narrative, which describes the 
timeline and a series of actions undertaken by the United States 
Government regarding the legal status of the MEK and the U.S. 
obligation and commitment to protect its members in Camp Ashraf . This 
narrative is based on my conversations with United States commanders in 
the Iraqi theater, public sources, and submissions by the MEK to the 
United States Court of Appeals for the District of Columbia, in which 
it explained the change of circumstances of the organization following 
the post-Iraq war.
    In addition, I am also attaching a legal opinion on the subject by 
two highly acclaimed International Humanitarian Law scholars, Prof. 
Marco Sassoli, Professor of International Law and Director of the 
Department of International Law and International Organization at the 
University of Geneva, Commissioner of the International Commission of 
Jurists' (ICJ, and Associate Professor at the Universite AE1 du Que 
AE1bec a AE2 Montreal, Canada; and Dr. Siobha AE1n Wills, an expert in 
public international law, particularly the law of armed conflict, human 
rights law, and the law relevant to peacekeeping operations at 
University College Cork in Cork Ireland.
    This legal opinion, citing various International Humanitarian Law 
and several articles of the Fourth Geneva Convention, makes it clear 
that even as of today, the United States is still legally bound to 
protect the residents of former Camp Ashraf and now Camp Liberty.
                         the factual narrative:
                            1. mek disarms:
    Before the United States-led invasion of Iraq, the Mujahedin-e 
Khalq (MEK/PMOI) declared its complete neutrality in the conflict. In a 
letter to the Secretary of State Colin Powell in February 2003, the 
MEK's umbrella group wrote that it will take no part in the war and its 
only aim is to struggle against the Iranian regime. In early 2003, the 
MEK also gave the coordinates and locations of all of its bases and 
centers in Baghdad to the United Nations Monitoring, Verification and 
Inspection Commission (UNMOVIC) and subsequently through members of 
United States Congress and the British Parliament to the United States 
and UK governments.
    In April 2003, the MEK and the Coalition forces signed an agreement 
of mutual understanding and coordination . Subsequently, a further 
agreement to consolidate and disarm was reached in May. General Raymond 
T. Odierno, who had negotiated the agreement, announced it in May 2003 
and characterized it not as surrender, but as ``an agreement to disarm 
and consolidate.'' 1A\1\ Concerning the MEK, General Odierno added, ``I 
would say that any organization that has given up their equipment to 
the Coalition is clearly cooperating with us, and I believe that should 
lead to a review of whether they are still a terrorist organization or 
not.'' 1A\2\ He noted that the MEK and the U.S. shared similar goals 
``in forming democracy and fighting oppression and that they had been 
`extremely cooperative.' 1A'' 1A\3\
---------------------------------------------------------------------------
    \1\ 1AAgence France Presse, ``US says Iran opposition in Iraq 
agrees to disarm,'' April 10, 2003.
    \2\ 1AIbid.
    \3\ 1AIbid.
---------------------------------------------------------------------------
    Following this agreement, the MEK handed over all its heavy, medium 
and small caliber weapons to the Coalition. In a statement on May 10, 
2003, CENTCOM (United States Central Command) welcomed the PMOI's 
cooperation. It said, ``V Corps has accepted the voluntary 
consolidation of the Mujahedin-E-Khalq's (MEK) forces, and subsequent 
control over those forces . 1A. 1A. The MEK forces have been abiding by 
the terms of this agreement and are cooperating with Coalition 
soldiers.'' 1A\4\ In a statement a week later, CENTCOM said, 
``Coalition forces have consolidated 2,139 tanks, armored personnel 
carriers, artillery pieces, air defense artillery pieces and 
miscellaneous vehicles formerly in the possession of the Mujahedin-e 
Khalq (MEK) forces . 1A. 1A. The voluntary, peaceful resolution of this 
process by the MEK and the Coalition significantly contributes to the 
Coalition's mission to establish a safe and secure environment tor the 
people of Iraq.'' 1A\5\
---------------------------------------------------------------------------
    \4\ 1ACENTCOM statement, ``MEK Consolidating under Coalition 
Control,'' May 10, 2003.
    \5\ 1ACENTCOM statement, ``Update on the Consolidation of the 
Mujahedin-E Khalq (MEK),'' May 17, 2003.
---------------------------------------------------------------------------
    In an interview with the press corps the following month, in 
response to a question about the status of MEK in Iraq, Gen. Odierno 
said, ''They have been completely disarmed. We have taken all small 
arms and all heavy equipment. They had about 10,000 small arms, and 
they had about 2,200 pieces of equipment, to include about 300 tanks, 
about 250 armored personnel carriers and about 250 artillery pieces.'' 
1A\6\
---------------------------------------------------------------------------
    \6\ 1A Defense Link, United States Department of Defense, ``Maj. 
Gen. Odierno Video-teleconference fromBaghdad,'' June 18, 2003.
---------------------------------------------------------------------------
 2. the united states recognizes the mek as 'protected persons' under 
                     the fourth geneva convention:
    Subsequent to the agreement on the voluntary handover of weapons 
between the MEK and the Coalition and once that process was completed, 
there followed an extensive investigation, including individual 
questioning, of each member resident at Ashraf (numbering about 3,400) 
by the CIA (Central Intelligence Agency), the FBI (Federal Bureau of 
Investigation), and the State, Defense, Justice, Homeland Security, and 
Treasury departments, among other agencies. Ultimately, on July 2, 
2004, the US government concluded that it had ``found no basis to 
charge members of an Iranian opposition group [MEK] in Iraq with 
violations of American law.'' 1A\7\
---------------------------------------------------------------------------
    \7\ 1A Douglas Jehl, ``U.S. Sees No Basis to Prosecute Iranian 
Opposition `Terror' Group Being Held in Iraq,'' The New York Times,. 
July 27, 2004. Available at: http://www.nytimes.com/2004/07/27/world/
reach-war-people-s-mujahedeen-us-sees-no-basis-prosecute-iranian-
opposition.html
---------------------------------------------------------------------------
    That clean bill of health, together with the signing by such 
individual MEK member of a written agreement renouncing terrorism and 
rejecting violence led to the grant in July 2004 to all MEK members 
``protected person'' status under the Fourth Geneva Convention. 1A\8\ 
The New York Times wrote in this regard, ``Senior American officials 
said extensive interviews by officials of the State Department and the 
Federal Bureau of Investigation had not come up with any basis to bring 
charges against any members of the group.'' 1A\9\
---------------------------------------------------------------------------
    \8\ 1AUS government declaration on the `protected persons' status 
of the MEK, July 2, 2004.
    \9\ 1AJehl, Op.cit.
---------------------------------------------------------------------------
    By Proclamation of July 2004, the United States affirmed that it 
had confirmed protected person status to the individuals at Camp Ashraf 
under the Fourth Geneva Convention. In a letter to Ashraf residents, 
Maj. Gen. Geoffrey D. Miller, then-Deputy Commanding General of Multi-
National Force-Iraq, wrote, ``I am writing to congratulate each 
individual living in Camp Ashraf on their recognition as protected 
persons under the Fourth Geneva Convention . 1A. 1A. You have signed an 
Agreement rejecting violence and terrorism. This sends a strong signal 
and is a powerful first step on the road to your final individual 
disposition.'' 1A\10\
---------------------------------------------------------------------------
    \10\ 1AMaj. Gen. Geoffrey D. Miller. Deputy Commanding General, 
MNF-I. letter to Ashraf residents, July 21,2004.
---------------------------------------------------------------------------
    The PMOI's `protected persons' statue was reiterated in a letter 
dated October 7, 2005 from Major General William H. Brandenburg, Deputy 
Commanding General of the Multi-National Force--Iraq, addressed to the 
General Secretary of the MEK, Mme. Sedigheh Hosseini, and the residents 
of Camp Ashraf. In his letter, 1A\11\ Gen. Brandenburg took note that 
both sides had benefited by their working together ``in the spirit of 
common humanitarianism.'' General Brandenburg 's meticulous listing in 
his letter of the rights guaranteed the MEK by the Coalition forces is 
a testament to the solicitude of the Coalition toward these 
individuals.
---------------------------------------------------------------------------
    \11\ 1AMaj. Gen. William H. Brandenburg, Deputy Commanding General. 
MNF-I. letter to MEK Secretary General, Ms. Sedigheh Hossein, October 
7, 2005.
---------------------------------------------------------------------------
    And in February 2006, Maj. Gen. John Gardner, who replaced Gen. 
Brandenburg, reiterated the MNF-I's ``responsibilities with regard to 
the Geneva Convention Relative to the Treatment of Civilian Persons 
(GCIV), 1949.'' 1A\12\
---------------------------------------------------------------------------
    \12\ 1AMaj. Gen. John D. Gardner, Deputy Commanding General, MNF-1, 
letter to MEK Secretary General, Ms. Sedigheh Hosseini, February 6. 
2006.
---------------------------------------------------------------------------
    On September 4, 2008, Gen. David Petraeus, then-Commanding General 
of the Multi-National Force-Iraq, said, ``the residents or Camp Ashraf, 
the Mujahedin-e Khalq, are in a legal status that is called ``Protected 
Persons Status'' by international law. And U.S. Forces still arc 
responsible for the security of them because of that status.'' 1A\13\
---------------------------------------------------------------------------
    \13\ 1AGeneral David Petraeus, Commanding General, Multi-National 
Force-Iraq, interview, September 4, 2008.
---------------------------------------------------------------------------
    International organizations have also recognized the status of the 
PMOI/MEK as protected persons under the Fourth Geneva Convention. The 
International Committee of the Red Cross (ICRC) wrote in April 2004, 
``The PMOI members in Iraq fall in general under the protection of the 
Fourth Geneva Convention.'' 1A\14\ The ICRC reiterated its position in 
a subsequent letter in December 2004. It wrote, `` . 1A. 1A. those 
persons who were protected by the Fourth Geneva Convention . 1A. 1A. 
remain protected by the Fourth Geneva Convention.'' 1A\15\
---------------------------------------------------------------------------
    \14\ 1AGeorges Comninos, Head of Operations, Middle East and North 
Africa, International Committee of the Red Cross, April 20. 2004.
    \15\ 1AGeorges Comninos, Head of Operations, Middle East and North 
Africa, International Committee of the Red Cross, December 16, 2004.
---------------------------------------------------------------------------
           3. continued promise of security to the residents
    The Department of State directly or by other means repeatedly 
reiterated its commitment to safety and security of the residents. The 
following are a few examples:
    a) &Secretary Hillary Rodham Clinton, December 25, 2011:
       &``We welcome the agreement by the Government of Iraq to allow 
the United Nations to station monitor at this new location around the 
clock and to observe the move from Ashraf to this new location.'' 
1A\16\ She added ``In addition, officials from United States Embassy 
Baghdad will visit regularly and frequently.'' 1A\17\
---------------------------------------------------------------------------
    \16\ 1Ahttp://www.state.gov/secretary/rm/2011/12/179695.htm
    \17\ 1Ahttp://www.state.gov/secretary/rm/2011/12/179695.htm
---------------------------------------------------------------------------
    b) &Ambassador Daniel Fried, ``Special Briefing'', December 29, 
2011:
       &``The U.N. will conduct 24/7 monitoring at Camp Liberty--or 
former Camp Liberty.'' 1A\18\ He also said ``In addition, Embassy 
Baghdad will visit former Camp Liberty on a frequent basis to provide 
robust observation.'' 1A\19\
---------------------------------------------------------------------------
    \18\ 1Ahttp://www.state.gov/r/pa/prs/ps/2011/12/179792.htm
    \19\ 1Ahttp://www.state.gov/r/pa/prs/ps/2011/12/179792.htm
---------------------------------------------------------------------------
    c) &Agreement between Department of State and MEK. August 16, 2012:
       &The Department of State ``Commit to support safety and security 
of the residents until the last of the residents leaves Iraq.''
    d) &Department of State, August 29, 2012:
       &``The United States also reiterates its commitment to support 
the safety and security of the residents throughout the process of 
their relocation outside of Iraq.'' 1A\20\
---------------------------------------------------------------------------
    \20\ 1Ahttp://www.state.gov/r/pa/prs/ps/2012/08/197002.htm
---------------------------------------------------------------------------
    e) &Further assurances, September 1, 2012
       &Following discussing with State Department officials in a 
letter addressed lo Mrs. Rajavi, Secretary Tom Ridge, Governor Ed 
Rendell and Senator Robert Torricelli wrote: ``Department officials 
also stressed their commitment for the safety and security of all 
residents throughout the process of their relocation outside 
Iraq.''(The letter is attached).
    f) &Agreement on 100 residents remaining at Ashraf as custodians of 
the residents' property, August 16, 2012:
       &The August 16, 2012, agreement between Department of State and 
PMOI recognizes the right of the residents to ``keeping an agreed 
number of residents at Ashraf to oversee the sale of the residents' 
possessions.'' This was the foundation of the quadripartite agreement 
also including U.N. and GOI for the relocation of the residents to 
Liberty. Accordingly, all agreed that 100 could stay in Ashraf, without 
a time limit, until the property issue was resolved.
       &United Nations Secretary General's Special Representative lo 
Iraq, Amb. Martin Kobler, reiterated this point in the ``Final 
arrangement for the relocation of Camp Ashraf residents'' on September 
6, 2012: ``The GOI should provide protection for the property and 
remaining residents in CNI [Camp Ashraf] and their until the issue of 
property is resettled completely.''
       &Secretary Clinton's Special Advisor on Ashraf Amb. Fried wrote 
on September 6, 2012:`` . 1A. 1A. 100 residual group without time limit 
remains as guardian of the property [at Camp Ashraf]. GOI also must 
provide protection for property.'' Ambassador Fried was asked ``whether 
there was a deadline for the last group of 100 to leave, he said there 
was 'no time limit'.'' 1A\21\ (AFP, October 3, 2012).
---------------------------------------------------------------------------
    \21\ 1AAgence France Presse, October 3, 2012.
---------------------------------------------------------------------------
       &Despite such agreement on September 1, 2013, Camp Ashraf was 
attacked and 52 residents were massacred, execution-style. 1A\22\
---------------------------------------------------------------------------
    \22\ 1AErnesto Londo AE6no, ``At least 52 Iranian exiles executed 
in Iraqi camp, U.N. says,'' The Washington Post,September 4, 2013. 
Available at: https://www.washingtonpost.com/world/national-security/
at-least-52-iranian-exiles-executed-in-iraqi-camp-un-says/2013/09/03/
4eab81fa-14e5-11e3-a100-66fa8fd9a50c--story.html
---------------------------------------------------------------------------
    g) &Under Secretary of State for Political Affairs Wendy Sherman, 
Senate Foreign Relations Hearing, October 3, 2013:
       &``We quite agree that we need to do anything we can to resettle 
the people [in Camp Liberty], to get them out of the harm's way, to 
make good on the word we gave to the MEK. I know there are strong 
feelings up here and I understand why.'' 1A\23\
---------------------------------------------------------------------------
    \23\ 1AAvailable at: http://www.foreign.senate.gov/hearings/
reversingirans-nuclear-program

Wesley Mortin (Ret.),
Colonel (Retired), U.S. Army Military Police;
Former Anti-Terrorism/Force Protection OIC, for Coalition Forces-lraq;
Former Senior Operations Officer, Task Force 134 (Detention 
Operations), Multi-National Forces
Iraq
Former Commander-Camp Ashraf, Iraq



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    

    Colonel Martin. Matter of fact, I just did.
    Senator King. The other piece that I want to follow up on 
is, I'm a little uncomfortable with this hearing because we 
don't have anyone here from the administration. We--I--there--
I'm old enough to realize there are always two sides to every 
story, and I--you've made a very strong case. In fact, the case 
is so strong, you have to wonder why isn't this--why wasn't 
this taken care of some time ago, and there must be some 
reason. I would like to hear----
    Perhaps, Mr. Chairman, we could solicit the comments of the 
administration or the State Department or the Department of 
Homeland Security to determine why this hasn't been dealt with. 
I'm just--again, I'm not taking any side here, but I--I'm 
uncomfortable not hearing both sides of the situation.
    Colonel Martin. Yes, sir. If I may. Congressman Dana 
Rohrabacher offered them a chance of what you speak of, that I 
would be at the table along with Colonel Gary Marsh and a 
representative of the State Department. They refused. I would 
love to sit at a table in front of you ladies and gentlemen and 
go through the issues with U.S. State Department. Every time we 
have made that offer, they've refused.
    Earlier, your question was--the promises. There's been a 
series of promises, especially in 2012 from Dan Fried, that 
these actions would be taken to get them out of harm's way. He 
came to us. General Jones was on the phone calls, as well as 
myself, Louis Freeh, Tom Ridge, Ed Randell, Howard Dean, and 
many others, and Hugh Shelton especially. ``We will do this, we 
will do this, we will do this.'' Even one of the promises, 
``We're going to be out at that camp on a continual basis.'' I 
have that one in writing in this----
    Senator King. Well----
    Colonel Martin.--packet.
    Senator King.--I understand. I understand that the 
circumstances have changed because of Iran's influence in Iraq 
at this moment, and that that raises the level of, as you said, 
stress in this situation, and perhaps urgency. I fully 
understand that. I just want to--I just want to get some of the 
details and some of the background, and I want to understand 
why, if it's so obvious we should do this, it's not being done. 
That----
    I'm out of time, but----
    Colonel Martin. Yes, sir.
    Senator King. I appreciate your testimony, and I appreciate 
the urgency of this situation, and just want to be sure we 
understand all the implications when we move forward.
    Thank you.
    Thank you, Mr. Chairman.
    Senator McCain. Could I just mention to the Senator that we 
have been trying for years to get the State Department to 
react--correspondence, meetings, every method that I know of, 
besides a congressional hearing--to try to get this issue 
resolved and these people, who are now in greater and greater 
danger, what we promised them.
    I've got to say, Colonel Martin, you didn't exactly 
describe--it was--that was in return--that guarantee was in 
return for them giving up their weapons, and, in giving up 
their weapons, we said we would guarantee their safety and gave 
them--under the Geneva Conventions. But, that doesn't mean 
anything but the United States used that as a rationale for 
guaranteeing their protection. It's been going on for years. 
And----
    Go ahead, General.
    General Jones. After you, sir.
    Senator McCain. Go ahead. Please.
    General Jones. I just wanted to say that we have worked 
diligently with the administration on a regular basis, on a 
daily basis almost. All of Colonel Martin's reports have been 
sent to both the National Security Council and the State 
Department. There are three of us at the table, but it's a part 
of a larger group, including six former Ambassadors, former 
Director of the FBI, former Attorney General, eight four-star 
generals, one Speaker of the House, four Governors, six Members 
of Congress, one White House Chief of Staff----
    Senator King. Now, when you mention those Governors, 
that's----
    General Jones.--and three former----
    Senator King.--that's--you're doing well when you've got--
--
    [Laughter.]
    Senator Lieberman. Incidentally, broadly bipartisan.
    General Jones. Yeah, it's broadly bipartisan. This is not 
work that's being done in isolation. I mean, every document has 
been provided. All the Colonel's weekly reports go directly to 
the State Department. So, we have really tried to collaborate 
with this, and we still want a collaborative outcome, but we 
need an outcome before the next tragedy happens.
    Senator McCain. Senator Shaheen.
    Senator Shaheen. Well, thank you, Mr. Chairman, and thank 
you, Senator Reed, for holding this hearing today, and for--our 
witnesses for being here to testify about what I also believe 
is a travesty and that we have not lived up to the commitments 
that we have made to the people who are now at Camp Liberty.
    I was in Iraq, back in 2009, and we heard about this issue, 
and I've had a chance to see the video--a video of one of the 
attacks on Camp Liberty, and the people being murdered. So, I 
think it's an area where we need to do much more to address 
what has happened there. I don't understand why people who have 
relatives here are not able to come and join their relatives 
and be resettled in America.
    So, I guess I'm--I appreciate that I'm asking you all for a 
subjective analysis of why the resettlement has been so slow, 
but is it just bureaucratic foot-dragging? Is it because it has 
not risen to the level of the attention of some of the people 
at State who can make it happen to put pressure on Iraq to 
release the residents of Camp Liberty? Or is there something 
else going on?
    General Jones or Senator Lieberman, I don't if either of 
you have a perspective on that.
    General Jones. Senator, I don't know the answer to that. 
All I know is that, for the last several years, things that 
look like they're finally going to move are replaced by another 
obstacle. The delisting of the MEK, we thought was going to be 
the end of it, but it was replaced by another listing that was 
somewhat, in my view, arbitrary, but it has served to delay the 
process even more.
    I don't think the Iraqi government has been particularly 
helpful. They play cat-and-mouse with the residents. Sometimes 
they deny food, they deny protection, they turn off the water, 
they don't take out the trash or the garbage for days on end. I 
mean, it's just a constant problem.
    But, I really think that the real answer is for someone in 
authority to just make a decision, ``Enough. We're going to do 
the right thing. We made a commitment to these people. We 
didn't live up to it. It's time to finish it.'' I think it's 
that simple. It's a humanitarian gesture that--I, frankly, 
don't care what the Iranians think about this. I think it's the 
right thing to do.
    Senator Shaheen. Senator Lieberman, one of the things that 
I have heard from relatives of people at Camp Liberty that 
they're very concerned about is this requirement that they 
renounce MEK, and concerned about what that might mean in the 
future and if somebody could use that to then come back and 
address their ability to continue to live in the United States. 
I've not had anybody explain to me adequately why that is 
something that people are being requested to do. Have you had 
anybody explain to you why that's so important?
    Senator Lieberman. I have not.
    First, Senator Shaheen, let me thank you for the leadership 
that you've shown on this matter. You've been a real great 
advocate for the people in Camp Liberty. I know all their 
families and friends appreciate it a lot.
    This requirement of renouncing membership in an 
organization that is no longer considered a threat or a 
terrorist organization by any means, and really there are 
questions about whether it ever should have been on the 
terrorist organization--seems to me to be very un- American. I 
mean, it's like--it's a belief test. It seems contrary to the 
First Amendment. It--the truth is that the--there are a lot of 
people there who have had a long history in Camp Liberty with 
the MEK. As I mentioned, they're freedom fighters. I mean, they 
were against the Shah, then they were part of the revolution, 
then they turned against the Ayatollahs, because they replaced 
one dictatorship with a worse dictatorship. So, I have never--
and to what extent Members of Congress can push the State 
Department to explain that or, really, to rescind it, because 
it's an--it's an unfair obstacle.
    You've made a good point, it's going to raise insecurity, 
anxiety in the mind of people coming into the country, that 
somehow this is going to come back, 3, 4, 5 years from now, and 
they may be subject to deportation.
    I would say to you--Senator King, I'm just taking this 
moment--I think the State Department, if they were here, would 
not question the promises made to the residents of Ashraf and 
then Liberty. But, what I would like to hear them explain is, 
Why all the delay? What's--and you're left--I don't know this, 
but we're left--because we know how much the Iranian government 
wants to torture these people, essentially, wants them in the 
stress, and worse. It leads us to, naturally, suspect that the 
Iranians are putting pressure on the Iraqis to do that, and 
maybe on us, in the diplomatic negotiation. But, it would seem 
much bigger than the status of 2,400 people in a camp in Iraq. 
But, you know, again, America's supposed to be about the right, 
liberty--the right to life and freedom of individuals. There's 
2,400 individuals in this Camp Liberty whose freedom is 
constantly under stress.
    Senator Shaheen. Well, thank you all very much. My time is 
up.
    Colonel Martin, I'd--I want to thank you for your good work 
on this, but I do want to disagree with you. My recollection is 
that nobody was urging Maliki to run for a third term, that, in 
fact, there was a lot of effort put into trying to get him to 
step aside.
    So, I do hope that we an continue to do everything 
possible, and that this committee will do everything possible, 
to urge that the residents of Camp Liberty are allowed to 
emigrate either to the United States or to someplace safe.
    Thank you all.
    Senator McCain. I thank you, Senator Shaheen, for a very 
compelling statement.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you, this distinguished panel.
    Senator Lieberman, we're glad to have you back in your old 
abode.
    Senator Lieberman. Thanks, Senator Sessions. Great to be 
here.
    Senator Sessions. Every now and then we did some good work.
    Senator Lieberman. We did.
    Senator Sessions. I appreciate that.
    General Jones, thank you for your service, and Colonel 
Martin.
    Well, I've been sympathetic to the Camp Liberty people for 
some time, but there have been problems. Some of this is their 
own problem. One of the problems, I understand, with their 
desire to emigrate to the United States is, they want to come 
as a group. They don't want to be diversely populated around 
the country. They want to maintain their unity. Is that true?
    Colonel Martin. No, sir. They will come anyway they can 
come here. The issue about coming as a group--I was in the room 
when Major General Jack Gardner was talking to Madam Parsai 
about a place that they could possibly go. Madam Parsai said, 
``Tell you what. We'll gladly go to California. I'll tell you 
what, if they did come as a group, find an old ghost town that 
has water underneath it, and, within 2 years, you'll have a 
flourishing community.'' But, they are willing to come as 
individuals. They want to come out of that danger.
    What we often forget is, this is the former National 
Liberation Army that was a military unit. So, when people say, 
``They're a cult, they wear uniforms''--well, yes. I was a 
soldier. I wore a uniform, but I wasn't in a cult. They're 
loyal to their leadership.
    Senator Sessions. Well, Colonel Martin, there's something 
unusual about the bunch. I mean, they're communists, right----
    Colonel Martin. No, sir.
    Senator Sessions.--their heritage?
    Colonel Martin. No, sir.
    Senator Sessions. That's not so?
    Colonel Martin. Communism and Islam does not mix, sir. They 
are----
    Senator Sessions. Well----
    Colonel Martin.--not communists. There was a communist 
element----
    Senator Sessions. Theistic communist----
    Colonel Martin. No, sir.
    Senator Sessions.--is that what you would call it?
    Colonel Martin. No. There was a communist element that 
Massoud Radjavi was able to defeat, and that is the 
organization that went away. This is not a communist. They're 
moderate, they're democratic.
    [The information referred to follows:]

    The Mujahedin-e Khalq are not communist:
    The mainstream MEK has always been a Muslim movement. In 
1966, the organization adopted a set of philosophies that would 
put them at odds with both the ruling government and rising 
Islamic fundamentalists. They came to embrace equality between 
those in power and those not, between men and women, and among 
various religions and races. Going even further, they believed 
the clergy should not have total control over interpretation of 
the Quran, nor should the clerics have total control over their 
congregations. These philosophies, which still have major 
influence on the MEK, would cast them into fighting successive 
enemies.
    Even further problems were growing. As in the case of many 
organizations, an internal element often develops that does not 
share organizational beliefs, but are within the ranks because 
it best suits their purpose at the time. When the opportunity 
presents itself, this element will either split off or attempt 
to take control of the original organization. This became the 
situation as a Marxist element emerged within the MEK. Often at 
serious odds with established senior leadership, the Marxists 
soon found themselves in a very advantageous position.
    The Shah's regime arrested sixty-nine members of the MEK in 
August of 1971. The core of the MEK leadership was off the 
streets, and most ended up on the gallows, including the three 
founding members. As very few remaining members of MEK 
leadership survived in the Shah's prisons, awaiting the end of 
torture that only death would bring, the rift between the rival 
elements intensified. By May of 1972, two MEKs existed, with 
the preponderance of power favoring the Marxists. The two 
elements spent as much time fighting each other as they did 
engaging the Shah's regime. Meanwhile, one imprisoned member 
who was not executed by the government enforcers, but rather 
remained captive until the final days of the Shah's rule, was a 
young Massoud Rajavi. Inside prison he built an organizational 
structure and a large membership anchored on original MEK 
concepts and independent of Marxist influence.
    In November of 1976, the strength of the Marxist MEK was 
shaken when they lost a major gun battle with Iranian police. 
In January of 1979, ten days before Ayatollah Khomeini returned 
to Iran from exile in Paris, Rajavi was released from prison. 
As he worked to rebuild the MEK, most of the subordinate 
leadership he selected also came from Qasr Prison. By then, the 
Marxist element had abandoned any claim to the MEK name and 
renamed themselves ``Paykar'' (Struggle). Paykar has long been 
defunct.
    The best analysis to this situation was provided by former 
Undersecretary of State George Ball in his August 19, 1981 
Washington Post article. Mr. Ball stated, `` . 1A. 1A. The 
sloppy press habit of dismissing the Mujahedeen as leftists 
badly confuses the problem . 1A. 1A. Its intention is to 
replace the current backward Islamic regime with a modernized 
Shiite Islam drawing its egalitarian principalities from 
Koranic Sources rather than Marx . 1A. 1A. ''

    Senator Sessions. Well, I've been sympathetic because I 
think we've been awfully slow to be helpful, here. I thought we 
could have been helpful over the years. I've always felt that 
way.
    I'm not comfortable with a group with a military history 
coming to the United States as a group. I'm not comfortable 
about that. I think that's one of the problems they've had. So, 
you're telling me they'll come individually, let's talk about 
that.
    Colonel Martin. I'd be glad to, sir.
    Senator Sessions. What is the danger--I don't want to go 
back. I'm sure you've talked about the danger they face today. 
I'll try to read the transcript and maybe submit some 
questions. Because I assume it is increasing with the Iranian 
influence in Iraq increasing.
    Senator Lieberman. That's correct.
    Senator Sessions. That's an unfortunate event that I wish 
hadn't occurred. So, I'm willing to look at this. I see 
others--maybe we're finishing up in our testimony. But, I do 
have--question the concept of bringing in larger numbers of 
people that only want to adhere together in the country. I'm 
not sure that's healthy for us at this point in time.
    Senator Lieberman. Senator Sessions, I do want to respond 
to that. As I understand it--and right now, of course, most of 
the folks who have left have gone to Albania. In some ways, 
we're raising, today, the possibility--and I know it's been 
raised somewhat before--about all of them coming here. But, as 
I understand it, the residents of Camp Liberty want a--want to 
leave together, they want to leave Camp Liberty together, 
because they don't want to leave a smaller number behind. But, 
they don't expect to be settled in the same place if they come 
here or if they go to Albania. The--here, we know that they 
have family and friends throughout the country, and, you know, 
each of them--family and friends have said, ``I'll take two'' 
or ``I'll take three,'' whatever. So, they'll be spread out all 
across America.
    Senator Sessions. Well, I only--my initial impression was, 
Why are we having such a hard time with this?
    Senator Lieberman. It's a good question.
    Senator Sessions. I've then learned that the group is 
sometimes hard to deal with, and they have very firm views 
about certain things they want and don't want, and it's made it 
difficult, and they've not been able to negotiate effectively 
with U.S. officials. So, it's presented a difficult problem.
    Thank you for your leadership and for sharing with us. 
Thank----
    Colonel Martin. If I may, for a moment, sir. General Jones 
will back me up.
    We have offered to State Department to help resolve those 
differences. One day on the telephone, Dan Fried was 
complaining. He says, ``Well, they don't understand the way we 
do things, they're a problem.'' I said to Dan Fried, I said, 
``Then let me go with your team over to Iraq, and I will bring 
them to the table, and we'll resolve all issues.'' Dan Fried 
snapped back at me and said, ``We don't need any outsiders 
involved.''
    Senator McCain. Identify who Dan Fried----
    Colonel Martin. Dan Fried was the Ambassador of the United 
States that worked the arrangement of the residents to leave 
Camp Ashraf and come to Camp Liberty, and then started working 
the resettlement process.
    I did find out one thing. Before I could respond to Dan 
Fried to that comment, ``We don't need any outside''----
    Senator Sessions. He was talking about you? Is that who he 
was talking about?
    Colonel Martin. He was talking about me, but he was talking 
about everybody. General Jones heard the conversation, ``We 
don't need any outsiders involved.'' I started to reply, but, 
before I could, Governor Tom Ridge stepped in. I did learn one 
thing. Anybody who's going to slam a combat veteran better not 
do it in the presence of Tom Ridge.
    [Laughter.]
    Senator Sessions. Well, Tom Ridge is a strong man, I agree.
    Well, thank you for your testimony. We'll try to wrestle 
with this. I don't think the State Department's at all at fault 
in this.
    Thank you.
    Senator McCain. Thank you, Senator Sessions.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman. Thank you for 
holding this hearing.
    Thank you to each of our witnesses for being here today.
    I want to say, particularly to Senator Lieberman, my former 
colleague, that you are missed here.
    Senator Lieberman. Thank you.
    Senator Blumenthal. Although----
    Senator McCain. Not by all.
    [Laughter.]
    Senator Lieberman. You've visited, and you missed the 
opening statement, when Senator McCain thanked me for taking 
the time to leave the bingo game at the senior center in 
Connecticut.
    [Laughter.]
    Senator Lieberman. But, you've been to that senior center. 
You know how good a time we have.
    Senator Blumenthal. We have a great bingo game. I'll take 
this occasion to invite Senator McCain----
    Senator Lieberman. Yes.
    Senator Blumenthal.--to join us.
    Senator Lieberman. I've done pretty well at the bingo 
table, incidentally.
    Senator McCain. I think I qualify.
    [Laughter.]
    Senator Blumenthal. But, I will stay steadfast and true to 
my contention that you are missed.
    Senator Lieberman. Thank you.
    Senator Blumenthal. But, you continue to do great work. I 
am very sympathetic and supportive of the cause that brings you 
here today, not only because the United States made a promise, 
and promises should be kept, as a matter of morality, but I 
believe that our image and our standing in the world community 
depends on our keeping our promises as a great nation and a 
nation that follows its ethical prescripts.
    I was particularly struck by your contention, Senator 
Lieberman, that we ought to put aside the nuclear agreement 
that has been reached and continue to pursue interests that 
may, in fact, put us at odds with Iran. I'd like to take this 
occasion to say that Iran is unlikely to change its behavior or 
conduct in the region in the wake of that agreement. If 
anything, flush with additional financial resources and with 
the need to demonstrate its revolutionary ambitions, it almost 
certainly will increase its mischief in that area. I would 
invite you to suggest other areas that perhaps we should pursue 
that could counter that continuing influence. Obviously, our 
keeping our promise in this instance is one that's important, 
but perhaps other areas where the same goals can be pursued.
    Just to mention that Senator Cardin and I and others have 
introduced legislation that would provide for additional 
economic sanctions if it increases its aid to terrorism, and 
other measures to aid our allies in the region, especially 
Israel, to counter that threat.
    So, if you wish to take this opportunity to comment on that 
question, I would invite you to do so.
    Senator Lieberman. Thanks very much, Senator Blumenthal. 
Thanks for your leadership in that legislation with Senator 
Cardin and others.
    So, as I said at the beginning just briefly, the nuclear 
agreement is going into effect. I hope that my skepticism about 
it is proven to be an overreaction and not well founded. But, 
it's over there. I think it's amazing. We have to learn from 
the Iranians. They haven't changed anything else about their 
behavior, and I think, therefore, we should not. So, I think 
the additional economic sanctions for their continuing horrific 
support, and contrary to U.S. interests and values--of 
terrorism, human rights violations--inside the country are very 
important, and the continued enforcement by the administration 
of the existing sanctions.
    I mean, the truth is that, though the lifting of some of 
the sanctions because of the nuclear agreement will give the 
Iranians billions of dollars, which I'm afraid they're going to 
use not only to support the regime inside the country 
economically, but also to support their terrorist proxies 
outside--the fact is that Iran is still not a good place for 
business to do business, because the existing sanctions on--
because of terrorism and human rights violations continue, and 
they're quite significant. So, I think that's one thing.
    The other that I mentioned today, and I know it's--it takes 
a step to it in another direction--but, really, the heart of 
this government is so contrary to the values of the United 
States. It's an Islamic dictatorship and really suppresses its 
people terribly, including--you look at the number of people 
executed under the so-called moderate Rouhani, it's more than 
under Ahmadinejad before him. Therefore, I think we ought to be 
explicit about the fact that to really have good relations with 
Iran, they're going to have to become a more democratic, small 
``d,'' country and to find ways to support the opposition to 
them.
    I mean, I referred to solidarity and the Refuseniks and in 
those days--well, two things. One, as Senator McCain knows, 
because we've heard Sharanski say this directly, never 
minimize--even this hearing, never minimize the power to those 
who are essentially incarcerated--and in Sharanski's case, it 
was in the gulag; in this case, they're living in stress, a 
really frightening situation in Camp Liberty--to know that 
somebody over here cares about it.
    The second is, Who would have guessed that solidarity would 
have overthrown the government in Poland, that the regime in--
the Soviet regime would have collapsed. But, they did. These 
things always start with small, principled, zealous freedom 
fighters. They're there--in this group, but also throughout 
Iran. I think we would be derelict and disloyal to our own 
national values if we did not find better ways, overt and 
covert, to support democratic opposition to the dictatorial 
regime in Tehran.
    Senator Blumenthal. Thank you----
    Senator Lieberman. Thank you----
    Senator Blumenthal.--very much.
    Senator Lieberman.--for the question.
    Senator McCain. Well, Senator Lieberman, I don't think I 
could summarize any better than what you just did.
    So, I want to thank the witnesses, and we'll continue this 
effort, which has assembled a remarkable coalition, as General 
Jones just pointed out, of former Attorney Generals, former 
head of the Homeland Security, Department of Homeland Security 
to all walks and all--in both political parties. Hopefully we 
will bring this issue to a conclusion, which means that these 
men and women who are suffering today on a daily basis are able 
to be freed of both the bondage in which they are existing and 
the threats to their lives which continue to grow as we see the 
Iranian influence grow. No doubt about the Iranians' desires 
concerning them.
    So, I thank the witnesses. This is important. Hopefully 
we'll--this will spur movement forward and we'll achieve our 
goal.
    Thank you.
    [Whereupon, at 11:10 a.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

                  Questions Submitted by Senator Cruz
    stalemate along sectarian lines and iranian influence over the 
                           government of iraq
    1. Senator Cruz. Despite the efforts of U.S. advisors, the effects 
of U.S. airpower and our support of the Iraqi government, this summer 
the Iraqi Army lost control of Ramadi and it has failed to retake and 
hold Fallujah. General Jones, what capabilities do the Iraqi Security 
Forces need to ``ultimately destroy'' ISIS in Ramadi, Fallujah, and 
Mosul and when do you believe they could have those capabilities?
    General Jones. Please see Appendix A for response.

    2. Senator Cruz. General Jones, I understand that Iraqi security 
forces rely heavily on Shi'ite militias, particularly for maintaining 
control of parts of Northern Iraq. Are the loyalties of those Shi'ite 
militias to the Government of Iraq, or do their primary loyalties lay 
elsewhere?
    General Jones. Please see Appendix A for response.

    3. Senator Cruz. General Jones, how much control does Iran exercise 
over those militias?
    General Jones. Please see Appendix A for response.

    4. Senator Cruz. It is no secret that after U.S. Forces left Iraq, 
the Iranian government exercised strong control over Baghdad through 
Nouri al Maliki. General Jones, how much influence does Iran maintain 
over Iraq because of Iraq's reliance Shiite militias to maintain 
control and security?
    General Jones. Please see Appendix A for response.

    5. Senator Cruz. General Jones, if Iran called upon the Shi'ite 
Militias to oppose Abadi and the government of Iraq, does Abadi's 
government possess the will and capabilities to prevail?
    General Jones. Please see Appendix A for response.

    6. Senator Cruz. General Jones, could Abadi survive politically if 
Iran rallied groups against him during elections, particularly if Iraq 
fails to extend control over the Sunni areas currently controlled by 
ISIS?
    General Jones. Please see Appendix A for response.

    7. Senator Cruz. General Jones, do you believe that Abadi exercises 
control of the Government of Iraq only with the cooperation and 
accommodation of Iran?
    General Jones. Please see Appendix A for response.

    8. Senator Cruz. General Jones, is liberation of the primarily 
Sunni regions of Western and Northern Iraq in the interest of Iran, or 
does that actually decrease Iranian influence by broadening the Sunni's 
base of support in Baghdad?
    General Jones. Please see Appendix A for response.

    9. Senator Cruz. General Jones, are you concerned that Iran is 
continuing to expand its influence over the Government of Iraq while 
the Iraqi Army prepares for a ground offensive into Western and/or 
Northern Iraq?
    General Jones. Please see Appendix A for response.

    10. Senator Cruz. General Jones, in the wake of Russia's move into 
Syria, the Russian foreign ministry has indicated that they will 
provide air support to Iraq, if Iraq asks. Five days ago, Abadi said 
that he ``welcomes'' Russian air support in Iraq. Do you believe that 
Iraq's willingness to accept Russian airpower is a sign that the United 
States is failing to provide Iraq with the sufficient air support to 
meet their needs?
    General Jones. Please see Appendix A for response.

    11. Senator Cruz. General Jones, how do you recommend we turn the 
Government in Baghdad away from the influence of Iran and Russia?
    General Jones. Please see Appendix A for response.

                           APPENDIX A

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
                                  [all]
                                  
                                  
                                  
</pre></body></html>
